<html>
<title> - VERIFYING IRAN'S NUCLEAR COMPLIANCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                  VERIFYING IRAN'S NUCLEAR COMPLIANCE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2014

                               __________

                           Serial No. 113-173

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-286 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Stephen G. Rademaker, National Security Advisor, 
  Bipartisan Policy Center (former Assistant Secretary, Bureau of 
  Arms Control & Bureau of International Security and 
  Nonproliferation, U.S. Department of State)....................     6
Mr. John A. Lauder, senior advisor, 20twenty Strategic 
  Consulting, Inc. (former Director, Nonproliferation Center, 
  Intelligence Community)........................................    16
Mr. Olli Heinonen, senior fellow, Belfer Center for Science and 
  International Affairs, John F. Kennedy School of Government, 
  Harvard University (former Deputy Director General, 
  International Atomic Energy Agency)............................    34
The Honorable Joseph R. DeTrani, president, Intelligence and 
  National Security Alliance (former Director, National Counter 
  Proliferation Center, Office of the Director of National 
  Intelligence)..................................................    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Stephen G. Rademaker: Prepared statement...........    10
Mr. John A. Lauder: Prepared statement...........................    18
Mr. Olli Heinonen: Prepared statement............................    36
The Honorable Joseph R. DeTrani: Prepared statement..............    47

                                APPENDIX

Hearing notice...................................................    84
Hearing minutes..................................................    85
The Honorable Randy K. Weber Sr., a Representative in Congress 
  from the State of Texas: Material submitted for the record.....    87
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    89

 
                  VERIFYING IRAN'S NUCLEAR COMPLIANCE

                              ----------                              


                         TUESDAY, JUNE 10, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. This 
morning we are focused on Iran's efforts to acquire a nuclear 
weapons capability, and how to stop it.
    International negotiations over Iran's nuclear program are 
coming down to the wire. Indeed, an urgent push is going on as 
we speak. Senior administration officials are sitting with the 
Iranians today in Geneva. Some critical differences remain, 
including the status of Iran's enrichment capability, which is 
technology key to developing a nuclear weapon. Iran's stated 
desire is to increase from its roughly 19,000 centrifuges today 
to over 50,000. The future of Iran's ``plutonium bomb factory'' 
at Arak remains unclear. Iran continues to stonewall 
international inspectors on its past bomb-making work. And just 
the other week, the country's Supreme Leader characterized the 
requirement that, as part of the final agreement, Iran limit 
its ballistic missile program as in his words ``stupid, idiotic 
expectations.'' I think we can presume that this is going to be 
a hard climb here. Meanwhile, Iran continues its support for 
terrorism abroad. It continues its quest for regional 
domination, and the abysmal human rights record at home 
continues where those who are not of the right belief system, 
according to the theocratic state, are executed. A nuclear-
capable Iran would be a national security disaster.
    While the sides might sound far apart, the Obama 
administration will push very hard to reach a deal before the 
July 20th negotiating deadline, and this committee may soon be 
asked to judge a ``comprehensive agreement.'' Central to this 
would be evaluating the verification measures needed to ensure 
that Iran cannot cheat. So what types of conditions should U.S. 
negotiators be demanding? What are the limits of verification? 
How does the IAEA's reliance on Iran's cooperation impact its 
work? Some cite the adage ``trust, but verify.'' In this case, 
there certainly can't be any trust. The question today is, can 
there be verification?
    These questions are sharpened by the fact that Iran's 
leaders have invested massive resources and decades of effort 
into their own nuclear program there. Enrichment facilities 
were built in secret, a violation of its agreement with the 
IAEA. One was even dug into a mountainside on a military base, 
another violation. As one witness will testify, ``when it comes 
to Iran's nuclear program, they have a history of deception, a 
history of covert procurement, and construction of clandestine 
facilities that are acknowledged only when revealed by the 
government's adversaries.''
    This dangerous regime has tied its prestige to its nuclear 
ambitions, and they are not peaceful. Given Iran's record of 
clandestine activity and intransigence, clear consequences for 
violating transparency and cooperation requirements must be 
spelled out with zero tolerance for cheating.
    An immediate test of Iran's willingness to cooperate rests 
with the IAEA's attempts to clarify evidence the international 
observer group has on the ``potential military dimensions'' of 
Iran's programs. For several years, Iran has refused to provide 
explanations or information to the IAEA on past bomb efforts. 
This includes the Parchin military base, where Iran has gone to 
great lengths to eliminate all traces of any clandestine 
activity, including demolishing buildings and removing large 
areas of soil from the site.
    Iran's willingness to come clean on its past weapons 
program should be an acid test for Western negotiators. We must 
ask: What good is striking an agreement and removing sanctions, 
our only leverage, if Iran keeps a capacity to secretly build 
nuclear bombs?
    Unfortunately, U.S. negotiators have already made a key 
concession that will complicate the task of verifying Iran's 
nuclear commitments. The Interim Agreement of last year would 
allow Iran to maintain a mutually defined enrichment program. 
This program could give Iran cover to develop a covert weapons 
program, as technically speaking, the ability to produce low-
enriched uranium is perilously close to that needed for a 
nuclear weapon.
    If Iran is left with the capacity to enrich, a break-out 
race to a weapon will be a permanent threat, a threat that 
undoubtedly would increase as sanctions are eased and the world 
turns its attention elsewhere. That is especially troubling, 
given how Iranian leaders have spoken of Israel as in their 
words, a ``one-bomb country.''
    Many on the committee are very troubled that the Obama 
administration has us on track to an agreement that leaves Iran 
as a permanent nuclear threat to the region and to us. Today's 
hearing will be this committee's latest warning against this 
ill-considered course of action.
    And I will now turn to the ranking member for his opening 
statement, Mr. Eliot Engel of New York.
    Mr. Engel. Well, thank you very much, Mr. Chairman. You 
know, you and I have made a great deal, as have other members 
of our committee, about the bipartisan nature of our committee 
and how you and I have worked hard to make this the most 
bipartisan committee in the Congress.
    I must say after listening to your opening statement, I 
agree with it fully. I share your concerns and I think these 
are concerns of many, many members of this committee on both 
sides of the aisle. So I want to thank you for calling this 
timely and important hearing. And as the P5+1 in Iran continue 
to negotiate, a potential agreement on Iran's nuclear weapons 
program, we need to carefully examine how such a deal could be 
fully verified. What are the requirements for a final deal? 
What safeguards are needed to give us confidence that Iran has 
truly ceased its drive to develop a nuclear weapons capability?
    According to the IAEA, the Joint Plan of Action Interim 
Agreement has paused many of Iran's advancements toward a 
nuclear weapon. However, if this temporary agreement became 
permanent, it would certainly be inadequate. The status quo 
would leave us with too many unanswered questions and an Iran 
that is too close to a nuclear breakout point. A comprehensive 
agreement is necessary to end the permanent threat of a nuclear 
Iran.
    With just weeks away from the July 20th deadline that the 
Joint Plan of Action set for a comprehensive deal, there have 
already been rumblings that an extension will be needed. Just 
last week, the head of the IAEA made clear that his agency 
would not be able to finish its ongoing investigation of Iran's 
nuclear program before July 20th. That actually might work in 
our interests if negotiations are continuing, but there is no 
deal and we need an extension.
    The negotiations between the P5+1 in Iran have taken place 
behind closed doors so we cannot evaluate the specific details 
of the potential deal that is being discussed. I hope that we 
will have an opportunity to hear from the administration in 
open session when appropriate.
    Whatever its final form, it is safe to say that this deal 
will not be based, as you said, Mr. Chairman, on Ronald 
Reagan's old axiom ``trust, but verify.'' On the contrary, 
there is a tremendous amount of mistrust between the parties 
and the Iranians deserve every ounce of suspicion. Tehran has 
spent years developing a covert nuclear program and has 
brazenly violated its obligations under the Non-Proliferation 
Treaty. Under this cloud of mistrust, we must carefully examine 
one of the most important parts of the deal, how do we verify 
Iran's compliance? Iran may not make a mad dash for the bomb, 
but everything I have seen and know about the Iranian regime 
tells me that they will try to push the boundaries of any 
comprehensive agreement and test the will of the international 
community to respond.
    One of my primary concerns is that even if negotiators are 
able to reach a deal, we still don't what we don't know. 
Building covert facilities, illicitly procuring equipment, 
outsourcing its program elsewhere; these steps could put Iran 
back on the path to a nuclear weapon.
    Mr. Chairman, today's hearing is important because Congress 
has an important role to play in this deal. I want to reiterate 
that. Congress has an important role to play in this deal. Any 
long-term sanctions relief must, and I say must, be approved by 
Congress. And to pass such relief, we will have to be convinced 
that the deal on the table is a good one which brings us back 
to the key questions facing our panel today.
    What are the minimum requirements for a good deal? I know 
that Secretary Kerry has said ``no deal is better than a bad 
deal.'' Well, I agree. The question is, will we agree on what 
is a good deal? What sort of verification measures will be 
needed to give us full confidence that Iran isn't cheating, or 
worse, attempting to break out? And finally, if we can't reach 
a deal with strong verification measures, what is the 
alternative?
    You know, I have been troubled by the negotiations with 
Iran. I hope we do have a comprehensive agreement. I hope it is 
verifiable and I hope that we are pleased with it. But you know 
what troubles me is while we are negotiating with Iran, they 
still continue to enrich. And it seemed to me that we could 
have and should have made a deal saying to the Iranians, ``If 
you want to talk with us for 6 months, you stop enriching while 
we are talking.'' I don't think that was so much to ask. And 
the fact that it wasn't done troubles me. I am told that it 
wasn't done because Iran wouldn't agree to it. Well, if they 
didn't agree to something as simple as that, what does that 
tell us, I fear, about their acquiescence to any kind of 
comprehensive agreement?
    So I welcome the testimony of our panel of expert witnesses 
to help answer these critical questions. But as far as I am 
concerned, I want to see a dismantling of Iran's program, not 
just a point where they are at nuclear break-out capacity, not 
at the point where we perhaps push them back a few months. I 
want to see them dismantle their program. And I thank you, Mr. 
Chairman.
    Chairman Royce. Thank you, Mr. Engel. We go now to Ileana 
Ros-Lehtinen of Florida, chairman of the Subcommittee on the 
Middle East and North Africa, who has been focused on Iran for 
a very long time.
    Ms. Ros-Lehtinen. Thank you very much, Chairman Royce, and 
Ranking Member Engel for holding this vitally important 
hearing. While the administration continues to negotiate a bad 
and weak deal with Iran, while keeping Congress in the dark, it 
is important for us to continue to highlight the menacing 
nature of the Iranian regime and the flaws in the 
administration's approach to this deception. We are almost at 
the end of the 6-month agreement, yet the administration has 
failed to properly consult with Congress about important parts 
of this deal. Where are the details?
    Congress has been steadfast in our mission to prevent Iran 
from acquiring nuclear weapons and it was only because of our 
efforts on implementing Iran's sanctions that Iran has even 
agreed to negotiate. I authored, with the support of so many 
members of this committee, the strictest sanctions against 
Iran, and now we are seeing all of that work undone by the 
administration that misguidedly and dangerously trusts Iran 
despite decades of evidence that tells us that the mullahs are 
untrustworthy. Time to wake up. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Ms. Ros-Lehtinen. We go now to 
Representative Ted Deutch of Florida, the ranking member on the 
Middle East and North Africa Subcommittee.
    Mr. Deutch. Thank you, Mr. Chairman. This morning's hearing 
is on verifying compliance. I fear that the hearing topic might 
be a bit premature. We are now coming up on the July 20th date, 
the end of the 6-month period. And before talking about 
compliance, we find ourselves asking what meaningful 
discussions have taken place on reducing the number of 
centrifuges? How close are we to a resolution on Fordow? What 
is the plan to mothball Arak? Has there been any access to 
Parchin, at all? And finally, and I think most importantly, 
when will Iran come clean on the military dimensions of its 
program?
    These were the fundamental points that we had to deal with 
during the 6-month period and as we approach the end of the 6-
month period, the notion that we can simply extend for another 
6 months because we don't have a deal yet is not an acceptable 
one. We need to have some sense that there is movement on the 
part of the Iranians toward a resolution rather than only 
delay. And I look forward to hearing from our witnesses today 
on how we might do that. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Deutch. Now we go to Mr. Ted 
Poe, chair of the Subcommittee on Terrorism, Nonproliferation, 
and Trade.
    Mr. Poe. Since the Joint Plan of Action was signed by Iran 
and the P5+1 in November, the administration has been 
negotiating with the Iranians for a big final deal. I hope our 
negotiators are not the same ones that worked in the big deal 
to trade in the Taliban 5 for Bergdahl. The administration 
seems to be giving away the courthouse and the mineral rights 
as well. It seems the White House would rather have any 
agreement, even a bad one, than no agreement at all.
    Iran is insisting on the right to enrich, which will allow 
them to cheat and come up with a bomb. This could take a few 
months or maybe a few years. They could develop a bomb so fast 
that we will not be able to detect it or stop it and then Saudi 
Arabia, Turkey, and Egypt will want to develop nuclear weapons. 
We must insist on absolute dismantling of nuclear weapon 
capability in any agreement. We are not dealing with nice 
people and cannot believe they will be honest about nuclear 
development. We must remember the Ayatollah still insists on 
the destruction of Israel and the United States and we must 
remember the Iranians are still developing intercontinental 
ballistic missiles, which could be used against the United 
States. So I have a lot of questions to ask. Thank you Mr. 
Chairman.
    Chairman Royce. Thank you, Judge. We go now to Mr. Brad 
Sherman of California, the ranking member on the Subcommittee 
on Terrorism, Nonproliferation, and Trade.
    Mr. Sherman. I strongly agree with the statements of the 
chair and the ranking member and reflect that this committee 
was pushing for strong sanctions on Iran over the objection of 
three administrations. Iran was brought to the table only 
because Congress imposed sanctions, they were resisted by the 
executive branch. In these negotiations, a lot of the focus is 
on whether Iran will enrich. Of equal importance is whether 
they will stockpile. Iran's resistance to enforcement 
mechanisms betrays an interest in evasion. It is easier to 
reactivate a centrifuge cascade than it is to reassemble 
international sanctions.
    Accordingly, we not only need to negotiate with Iran what 
mechanisms there will be to detect evasion, but we need to 
negotiate with our European and Asian partners what automatic 
sanctions reapplication will apply if any violation is 
detected.
    And finally, our experience with the Soviet Union 
illustrates that you can negotiate a deal and enforce a deal, 
even with an untrustworthy partner and even if that partner has 
greater capacity for evasion than Iran. So I think a deal is 
physically possible. The question is whether we will reach one.
    Chairman Royce. Thank you, Mr. Sherman. We are joined to 
help us think through these critical issues, we are joined by a 
distinguished group of experts here. Mr. John Lauder is a 
senior advisor at 2020 Strategic Consulting. He previously 
served as deputy director of the National Reconnaissance Office 
for National Support and was director of the DCI Non-
Proliferation Center.
    We have Mr. Olli Heinonen. He is a Senior Fellow at the 
Harvard Kennedy School of Government's Belfer Center for 
Science and International Affairs. Previously, he served 27 
years at the International Atomic Energy Agency in Vienna, 
where he was Deputy Director and head of its Department of 
Safeguards.
    We have Ambassador DeTrani. Prior to assuming his role as 
President of the Intelligence and National Security Alliance, 
Ambassador Joseph DeTrani served as the senior advisor to the 
Director of National Intelligence and he was Director of the 
National Counter-Proliferation Center.
    And we have Mr. Stephen Rademaker. Prior to joining the 
Bipartisan Policy Center as a National Security Project 
Advisor, Mr. Rademaker served as Assistant Secretary of State 
for the Bureau of Arms Control and the Bureau of International 
Security and Nonproliferation. Prior to that, he served as 
Deputy Staff Director and Chief Counsel of this committee and 
we welcome him back.
    So let me say that without objection, the witnesses' full 
prepared statement will be made part of the record. That is to 
encourage you to synthesize this into 5 minutes and the members 
here are going to have 5 calendar days to submit statements and 
questions and any extraneous material for the record.
    So Mr. Rademaker, if you would please summarize your 
remarks, we will begin with you.

   STATEMENT OF THE HONORABLE STEPHEN G. RADEMAKER, NATIONAL 
 SECURITY ADVISOR, BIPARTISAN POLICY CENTER (FORMER ASSISTANT 
  SECRETARY, BUREAU OF ARMS CONTROL & BUREAU OF INTERNATIONAL 
    SECURITY AND NONPROLIFERATION, U.S. DEPARTMENT OF STATE)

    Mr. Rademaker. Thank you, Mr. Chairman, and Congressman 
Engel. It is a real pleasure for me to appear here before the 
committee. It is always nice to come home to the Rayburn Office 
Building.
    You know I joined the committee staff in 1993 and one of 
the foremost issues of concern to the members of the committee 
in 1993 was the risk that Iran might acquire a nuclear weapon. 
And to me, it is really astonishing that here we are more than 
20 years later and this remains one of the foremost threats to 
U.S. national security. I just want to observe at the outset 
that I think this committee has consistently paid attention to 
this problem for more than two decades. You have provided 
extraordinary leadership to our nation and I think the American 
people are very well served by the leadership this committee 
has provided under a number of chairmen over the last 20-plus 
years. And I am glad to see that you are continuing to pay 
attention to the problem as demonstrated by today's hearing.
    I have submitted a prepared statement, so perhaps I will 
just summarize the key points that I make. The first point I 
make in my prepared statement is that Iran is not like other 
countries that say they want to develop civil nuclear energy. 
They have a track record of deception, of covert procurement. 
The totality of the evidence strongly suggests that Iran is 
interested in developing a nuclear weapon. So they can't be 
treated like a normal country. And that is why the question of 
verification of any agreement that is reached with Iran is 
critically important and that is why this is a very timely 
hearing that you are having today.
    The second point I make and I say if you only take away one 
point from my testimony today I want it to be this. Today, we 
are very much focused on verification of the Joint Plan of 
Action and the so-called Comprehensive Solution that is being 
negotiated now between the two sides in Vienna. A lot of the 
focus, most of the focus in verification discussions is valid. 
How do we verify their compliance with the JPA? How do we 
verify their compliance with the Comprehensive Solution? And I 
think that is important, given Iran's track record and I am 
joined by experts today that are going to have deep insights 
into how we should go about trying to detect any cheating by 
Iran on those agreements.
    But my critical point to you is the focus of verification 
has to be broader than just compliance with the current 
agreement and the one that is being negotiated right now. 
Verification has to look at what has happened in the past 
because there are a lot of unanswered questions about the past. 
It also has to be--this is even more important. I think we need 
to be worried about permanent verification because, as I 
explained in my testimony, the framework of the Joint Plan of 
Action and my Comprehensive Solution is that there is to be a 
long-term agreement here. But it is not a permanent agreement. 
It is to be, by its terms, it is to be time limited. That has 
been agreed to by the Obama administration and the P5+1.
    So what is being negotiated, it will be an agreement that 
applies for some period of time. I think the Iranians, my 
understanding is the Iranians only want it to be in effect for 
5 years. Other experts are saying it needs to run 20 years. I 
don't know what the P5+1 is asking, but I think the duration of 
this Comprehensive Solution is going to be somewhere between 5 
years and 20 years. That remains to be negotiated.
    So all of these discussions you are hearing now about 
limits on the number of centrifuges and the amount of enriched 
material that they can have, those limitations will apply while 
the Comprehensive Solution is in effect. But the JPA is crystal 
clear that when that term expires, when the agreed duration of 
the Comprehensive Solution is reached, all of these limitations 
end and then Iran becomes like any other country. Everything 
goes away. And let me just read the language from the JPA. It 
says, ``Following successful implementation of the final step 
of the Comprehensive Solution for its full duration''--that is 
the period that they agreed to--``the Iranian nuclear program 
will be treated in the same manner as that of any non-nuclear 
weapons state party to the NPT.'' And what that means is after 
5 years or after 20 years or whatever the period is, nuclear 
sanctions on Iran go away. That is the U.N. sanctions on Iran 
have to go away. Our sanctions on Iran have to go away. All of 
that is to end at that point. Restrictions on nuclear commerce 
with Iran end. So Iran can't be singled out and treated 
differently than other countries. We can't have export controls 
that treat Iran differently than other countries. Nor can the 
rest of the international community. Iran becomes a legitimate 
partner.
    So the idea of the Comprehensive Solution is that for a 
period of time if Iran behaves, if they are not caught 
cheating, and they uphold their commitments under the 
Comprehensive Solution, at the end of the Comprehensive 
Solution, they go from being nuclear pariah to nuclear partner. 
And at that point they are subject to the same verification 
that Germany or Japan or any other country is subject to. That 
basically consists of two things. That consists of IAEA 
verification under the Comprehensive Safeguards Agreement that 
applies to all countries. And then secondly, the additional 
protocol is enhanced verification that Iran has committed to 
ratifying and implementing under the JPA. But that is it. There 
will be more robust verification agreed to under the 
Comprehensive Solution and I think the parties are talking 
about. But that more robust verification will end when the 
Comprehensive Solution ends. And then we revert back to the 
additional protocol and comprehensive safeguards, the same 
verification that every other country in the world is subject 
to.
    I think it is a critical question for the committee to ask 
whether you are prepared today to agree that if Iran behaves 
for a set period of time, then we are prepared to end their 
sanctions. We are prepared to end special scrutiny of Iran and 
treat them as if they were Japan.
    I point out in my testimony, there are other examples of 
countries that have abandoned nuclear weapons programs and we 
have accepted that. And once they abandon their nuclear weapons 
program, we then treat them like a normal country. South Africa 
is an example. Brazil and Argentina are examples. But what was 
different in those cases was not only did they say they were 
abandoning nuclear weapons programs, and not only did they take 
steps in that direction, but in those cases there was also a 
fundamental change in government. In South Africa, the 
apartheid regime ended and Nelson Mandela took power. In Brazil 
and Argentina, military governments gave up power to civilian 
elected governments. And so it was logical in those cases to 
accept that there had been a fundamental change, that the 
government perhaps was no longer interested in nuclear weapons.
    In the case of Iran, the vision of the JPA is there doesn't 
need to be a fundamental change in government. Ahmadinejad can 
be the leader of Iran when the Comprehensive Solution lapses 
and Ahmadinejad will be treated as if he were Japan, his 
country will be treated as if it was Japan. That is what is 
spelled out. And so when we talk about verification, I think 
yes, absolutely, we need to focus on verification of the JPA 
and the Comprehensive Solution because for a country with 
Iran's record we have to be suspicious that there will be 
cheating. But we need to get to the bottom of what happened in 
the past.
    There are lots of unanswered questions and the JPA does not 
compel Iran to answer those questions. It says if a mechanism 
where there is to be a discussion, but there are no 
consequences attached if Iran fails to cooperate. If the 
questions remain unanswered, the JPA goes forward nonetheless. 
And I think something needs to be done about that to make sure 
we get answers about the degree to which they pursued a 
military nuclear program in the past. Even more importantly, in 
the future, after the Comprehensive Solution, I think the 
committee needs to consider: Are you satisfied with the 
standard safeguards and the additional protocol as the only 
verification that will apply to Iran's nuclear program upon the 
expiration of the Comprehensive Solution?
    [The prepared statement of Mr. Rademaker follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you, Mr. Rademaker. Mr. Lauder.

   STATEMENT OF MR. JOHN A. LAUDER, SENIOR ADVISOR, 20TWENTY 
 STRATEGIC CONSULTING, INC. (FORMER DIRECTOR, NONPROLIFERATION 
                CENTER, INTELLIGENCE COMMUNITY)

    Mr. Lauder. Thank you very much, Chairman Royce, Ranking 
Member Engel, members of the committee. Thank you for the 
opportunity to be here today to help address this vital 
national security topic, monitoring Iranian compliance with a 
potential nuclear agreement.
    I appear before you today in my private capacity as someone 
who has labored on monitoring and verification over several 
decades. The views that I will be presenting are my own and are 
not intended to represent the views of organizations with whom 
I have been affiliated, such as the intelligence community, the 
Department of Defense, and the Defense Science Board Task Force 
on the Assessment of Nuclear Treaty Monitoring and 
Verification. My statement draws in part on those experiences 
and on the Defense Science Board Task Force Report, as well as 
some work on a non-governmental Task Force on Verification 
Requirements for a Nuclear Agreement with Iran.
    Neither of the two task forces makes a judgment as to 
whether compliance with any particular nuclear agreement is 
verifiable. Indeed, we do not yet know of the details of the 
monitoring provisions that will emerge in the Iranian agreement 
now under negotiation or if such an agreement will be 
concluded. The Defense Science Board Task Force Report 
underscores that monitoring nuclear programs is very 
challenging and that the technical capabilities to do so are 
limited. But the report suggests a number of steps that can be 
taken to make monitoring more effective, to develop additional 
tools and approaches and to mitigate, but not entirely 
eliminate the risks.
    Mr. Chairman, I submitted a statement for the record that 
outlines key elements to facilitate compliance monitoring, 
elements that I would respectfully suggest to be part of the 
agreement with Iran and core to the way in which the United 
States and the international community approaches monitoring 
and implementation of the agreement.
    The implementation of a monitoring regime should be 
sufficiently rigorous to determine whether Iran has made a 
fundamental strategic decision to abandon its pursuit of 
nuclear weapons and toward a culture of compliance with 
international agreements and norms. I believe that the 
monitoring provisions to be included in the agreement will be 
the main determinant of the agreement's success and establish 
the essential foundation for all of the other provisions. 
Effective monitoring needs to be able to detect both a rapid 
breakout from some facilities known to us and a slow sneak-out 
from covert facilities.
    An agreement with Iran should hence provide one, a full 
explanation of past Iranian nuclear activities with possible 
military dimensions; and two, Iran answers previous questions 
from the International Atomic Energy Agency about such 
activities, explains who was involved, what actions were taken 
and where they took place. There can be no international 
confidence that the development of nuclear weapons capabilities 
has ceased.
    Second, a complete data declaration and robust inspection 
of Iran's nuclear activities, material, and equipment. Critical 
parts of Iran's nuclear programs are still not well understood 
by the international community. A final agreement must allow 
access to sites, persons, and records sufficient to make Iran's 
nuclear programs transparent.
    Third, an effective means of monitoring all of Iran's 
procurement activities with possible nuclear applications. A 
final agreement must prevent Iran from continuing to import 
illicitly materials for its nuclear enterprise. The best way to 
accomplish this is to set up an agreed channel for ending 
nuclear imports that might be allowed by the agreement. No 
import outside the channel should be permitted which will 
reduce ambiguities in the information detected by the 
monitoring process.
    Successful monitoring regimes in the past have achieved 
effective verification of compliance through a combination of 
measures, which may be held out as a standard by which to judge 
the adequacy of the monitoring regime to be applied in Iran. 
Based on past experience, an Iranian monitoring regime should 
include a combination of negotiated data declarations, 
inspection measures, and national and international monitoring 
to break tough challenges into manageable pieces, as well as a 
consultative body for an anomaly in dispute resolution.
    The key to all of these measures working effectively is the 
synergy created among data declarations tell us where to look, 
routine inspections, audited declarations, national and 
international unilateral monitoring and intelligence means to 
detect anomalies and challenge inspections, and the 
consultative body seek to gather more information relevant to 
the resolution of those anomalies. I recognize that not all of 
the measures that I recommend in my statement will be easily 
negotiable or ready for rapid implementation, but our goal 
should be to bring Iran from its prior pursuits of nuclear 
weapons capabilities into what I called earlier a culture of 
compliance with international agreements and norms.
    We should seek the newness in negotiations with Iran by 
seeking agreement and a security agreement to effective 
monitoring measures. We can also reinforce a culture of 
compliance by vigorous implementing the monitoring regime. Some 
of that implementation will fall to the International Atomic 
Energy Agency. Others will need to be carried out by the P5+1 
itself including by U.S. Government agencies.
    Congress can play a positive and strong role in insisting 
on effective verification, providing the resources necessary 
for monitoring tasks, and being attentive to compliance issues 
that may emerge.
    Thank you again to the committee for the opportunity to 
present some of my ideas on this vital topic. I look forward to 
your questions.
    [The prepared statement of Mr. Lauder follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you. Mr. Heinonen.

 STATEMENT OF MR. OLLI HEINONEN, SENIOR FELLOW, BELFER CENTER 
 FOR SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY SCHOOL 
   OF GOVERNMENT, HARVARD UNIVERSITY (FORMER DEPUTY DIRECTOR 
          GENERAL, INTERNATIONAL ATOMIC ENERGY AGENCY)

    Mr. Heinonen. Chairman Royce, Ranking Member Engel, 
distinguished members of the committee, thank you for inviting 
me to talk here today.
    In my testimony today, I am focusing on the verification 
aspects of a comprehensive deal. I am basing my remarks on the 
implementation of safeguards agreement and available and 
relevant Security Council resolutions in Iran, and 
complementing them with experiences drawn, in particular from 
the IAEA verification activities and monitoring activities in 
South Africa after its dismantlement of its nuclear weapons 
program, and some experience drawn also from safeguards 
implementation in Syria and North Korea.
    Timely detection and prevention of the development and 
acquisition of nuclear weapons or a state's capability to 
produce them is a complex task. Development of weapons of mass 
destruction is one of the closest kept secrets of a state. 
There are things, which we know, and there are aspects of such 
programs which we can perhaps to a certain degree deduce, but 
also features which we do not know.
    Due to the fact that Iran has been running parts of its 
program first clandestinely and then without satisfactorily 
fulfilling its reporting obligations to the IAEA and 
disregarding Security Council resolutions. The onus of proof 
bears heavily on Iran to show that its nuclear program is 
entirely peaceful.
    David Albright, Andrea Stricker and I have recently made an 
analysis on compromises which the negotiators crafting the 
comprehensive final agreement should avoid. I will now 
highlight some additional details which should be included in a 
final agreement.
    The strength of the IAEA verification system is access to 
material, nuclear material, facilities, equipment, and people. 
However, the safeguards are not the magic pill that once taken, 
cures everything. No verification system can provide absolute 
assurances that a treaty partner fully complies with its 
undertakings. This is especially the case when applied to 
problematic states that are noncompliant like Iran.
    Throughout the history of discussions on the nuclear 
program of Iran, Iran has always brought transparency, 
transparency to build the confidence of the international 
community to the peaceful nature of its nuclear program. 
President Rouhani has recently offered again transparency as 
one of the tools. Such transparency should be understood and 
implemented in a meaningful and systematic way. Even in the 
name of ``transparency'' where Iran decides to ``show'' a place 
previously off limits, such inspection visits can bear 
substance only if substantially new information and discussions 
take place, explanations are provided and those are verified. 
Hence, openness should be clearly defined and become a legally 
binding undertaking, and not treated as good will visits to be 
granted when problems arise.
    Going further, according to the provisions of the 
safeguards agreement, a state has to declare all nuclear 
material in its territory. Thus, military sites do not form 
sanctuaries, but the IAEA has the right to conduct inspections 
under safeguards agreement and complementary access under 
additional protocol when appropriate.
    The purpose of the verification is to reestablish Iran's 
nonproliferation records. In order to achieve that, Iran has to 
fully comply with its safeguards obligations. Under the 
safeguards agreement, IAEA statutes, IAEA protocol, and fully 
implement the verification and clarification requirements made 
by the IAEA Board of Governors and U.N. Security Council. But 
in addition to that, additional measures are needed. Iran has 
to provide complete declaration on all aspects of its past and 
current nuclear program including the military dimensions. Iran 
has to provide information on the production of source 
material, like yellowcake, including imports of those 
materials. It also goes beyond the requirements of the 
safeguards agreement.
    In addition to that, Iran has to provide information on all 
imports and domestic production of single-use and dual-use 
nuclear items as specified in the guidelines of the Nuclear 
Suppliers Group. And in addition to that, Iran has to provide 
IAEA unconditional and unrestricted access, including short 
notice inspections to all areas, facilities, equipment, 
records, people, and material as required by the IAEA.
    And then finally, a few words regarding the possible 
military dimension. Why does it matter? There are records that 
much of the material came to a halt in 2003. On the other hand, 
IAEA has assessed in its reports that some of this work has 
continued since then. It is important to understand the status 
of Iran's military-related efforts, noting that one of the last 
duties of people and organizations involved was the document 
work they have done. One plausible reason for such effort would 
have been to save the information for future use.
    Unless properly addressed, it would be difficult to create 
a meaningful and robust verification regime for Iran. It would 
also render difficult for the IAEA to determine with confidence 
that any nuclear weapons activities are not ongoing. Without 
addressing those questions, the IAEA will not be able to come 
to a conclusion that all nuclear material in Iran is in 
peaceful use which is an essential element in building 
confidence of the international community over Iran's nuclear 
program.
    Thank you.
    [The prepared statement of Mr. Heinonen follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you. Ambassador.

   STATEMENT OF THE HONORABLE JOSEPH R. DETRANI, PRESIDENT, 
 INTELLIGENCE AND NATIONAL SECURITY ALLIANCE (FORMER DIRECTOR, 
 NATIONAL COUNTER PROLIFERATION CENTER, OFFICE OF THE DIRECTOR 
                   OF NATIONAL INTELLIGENCE)

    Ambassador DeTrani. Thank you, Chairman Royce, Ranking 
Member Engel, distinguished members of the committee. Thank you 
for inviting me and having this important hearing.
    Let me just say that effective monitoring of an agreement 
with Iran will be exceptionally challenging. Iran has a 
demonstrated record of violating its safeguards agreements with 
the IAEA. The lack of transparency into Iran's nuclear program 
was cited and documented by the IAEA in numerous reports from 
the Director General to the Board of Directors. Iran was 
negligent certainly in declaring the Fuel Enrichment Plant at 
Natanz in 2002 and the Fordow Fuel Enrichment Plant in 2009. In 
fact, Iran acknowledged both facilities only after they were 
exposed by an opposition group and reported in the press. So I 
mean there is a record here that one has to be very, very 
cognizant of as was indicated by the chairman and others this 
morning.
    The IAEA Director General report of 8 November 2011, I 
think a very important report, provided disturbing details 
regarding Iran's nuclear warhead development efforts that would 
allow Iran to acquire the expertise necessary to produce 
nuclear weapons. Although there was previous IAEA reporting on 
``weaponization,'' this report was stark in its concern about 
the military dimension of Iran's nuclear program. This is a 
very, very central part of the issue here. Indeed, it is a 
covert--having covert facilities, but the militarization of 
their nuclear program.
    Director General Amano on 2 June 2014, just a few days ago, 
said the IAEA needed time before they could provide credible 
assurance of the absence of undeclared nuclear material in 
Iran.
    A robust monitoring and verification protocol will be 
necessary to deal with Iran's nuclear program. This will be 
very difficult, a difficult program to implement effectively. 
At a minimum, it will require unfettered and I emphasize 
unfettered access to people and places. Indeed, if Iran were in 
compliance with the six U.N. Security Council resolutions, all 
forbidding Iran from enriching uranium, the monitoring and 
verification process would be easier. And indeed, if Iran, as 
they say, was interested in a peaceful nuclear program, it is 
not only through enrichment of uranium that one could achieve 
and acquire a peaceful nuclear program.
    Since Iran reportedly will now be permitted to enrich 
uranium at some level, the IAEA's task will be considerably 
more difficult. Some of the monitoring issues are an accurate 
baseline of Iran's nuclear program is necessary for any 
meaningful monitoring program that will attempt to verify 
compliance with a safeguards agreement. Iran has declared 15 
nuclear facilities at 9 locations. Is this the totality of 
their program? As stated above, the IAEA cannot provide 
credible assurance of the absence of undeclared nuclear 
material in Iran. Assurances that there are no covert nuclear 
facilities in Iran capable of enriching uranium are necessary. 
Technically, locating covert uranium enrichment facilities is 
difficult, since spinning centrifuges are silent, with no 
signature or signal. Our experience with North Korea strongly 
reinforces this point.
    Iran announced its intent to construct 10 additional 
uranium enrichment facilities and to build a greater number, 
approximately 60,000 additional sophisticated centrifuges. 
Again, monitoring the declared facilities deploying 
sophisticated centrifuges with greater capacity and confirming 
the non-existence of additional covert facilities will be a 
real challenge.
    A comprehensive declaration from Iran on their nuclear 
program is a necessary first step for any monitoring and 
verification program. In addition to all related facilities, a 
list of the scientists and technicians who are working at these 
facilities is necessary. IAEA monitors will require unfettered 
access to these individuals and to their relevant records and 
notes.
    The right to take samples at every facility is necessary, 
with said sample undergoing testing at
    U.S. or IAEA labs.
    The issue of weaponization must be pursued, with access to 
known and suspected high explosive test sites, and all relevant 
records. Information dealing with miniaturization and the 
mating of a nuclear warhead to an Iranian missile must be 
pursued, for obvious reasons.
    Access to all related nuclear R&D work and sites will be 
necessary, with and I emphasize this ``any time, any place'' 
access to the facilities that manufacture, assemble and test 
centrifuges.
    Technical coverage of Natanz and Fordow, with cameras, 
sensors and inspections, will be necessary, 24/7.
    Technical monitoring of Arak, Iran's plutonium facility 
approaching completion, will be required since this facility 
has one purpose, one purpose, using plutonium for nuclear 
weapons. If Iran is committed to a peaceful nuclear program, 
Arak should be dismantled, not monitored.
    Those are some of the issues that a monitoring and 
verification protocol will have to address. The task will be 
massive, especially if Iran is permitted to construct 
additional fuel enrichment plans, similar to Natanz and Fordow, 
deploying improved centrifuges with greater capacity. 
Determining that permitted enrichment does not exceed the 5 
percent, this is so critical, a low enriched uranium level will 
also be a challenge, if Iran is permitted to enrich uranium at 
numerous facilities. Indeed, determining that there are no 
covert uranium enrichment facilities will be a principal 
challenge for any monitoring and verification protocol. Thank 
you.
    [The prepared statement of Ambassador DeTrani follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you, Ambassador. So you say the issue 
of weaponization must be pursued.
    Ambassador DeTrani. Absolutely.
    Chairman Royce. And we have all said Iran has to sit down 
and come clean for all of the reasons enumerated.
    Chairman Royce. Yet, the head of the IAEA says we are not 
getting any cooperation from Iran on this.
    Ambassador DeTrani. That is a fair point, Mr. Chairman, 
absolutely. And you mentioned in your opening statement Parchin 
and the high explosive test sites. There is no question, they 
have to come clean on all these issues, no question.
    Chairman Royce. But what if they are not forced to come 
clean? What are the implications of that?
    Ambassador DeTrani. I think there are sanctions in place. I 
think there are consequences if you are not coming clean. I 
think that is what the monitoring and verification protocols 
are all about, coming clean.
    Chairman Royce. This is a signed agreement we are trying to 
come to agreement on in terms of these issues to satisfy this 
issue of a weaponization. Of course, anyway, let us go back one 
point though to Mr. Rademaker's key focus on his testimony. The 
last line of the Interim Agreement notes that after 
implementing the final step of the Comprehensive Solution for 
the agreed amount of time, then Iran is treated ``the same,'' 
the same as any non-nuclear weapons state that is a party to 
the NPT.
    Mr. Rademaker, I think in your written testimony you said 
this is a giant get out of jail free card for Iran because it 
means at that point in time no more sanctions, no more 
restrictions on procuring nuclear items, no more restrictions 
on the number of centrifuges it can spin or the level to which 
it may enrich uranium, at that point in time, under the Interim 
Agreement, we have already conceded that whatever the time 
frame after that. You treat Iran like you treat Japan or 
Germany, completely legitimate. And what does that mean then 
for verification? What is the consequence? Because it's really 
just a question of trust, isn't it? We began with the argument 
referring to trust but verify, but it is completely a question 
of trust if at the end of the agreement everything is lifted 
and there is no more verification.
    Mr. Rademaker?
    Mr. Rademaker. Mr. Chairman, I think you put your finger on 
what I see as the biggest single verification challenge before 
us. And that is--it is really a conceptual challenge. The 
concept of the Joint Plan of Action is that there is this work 
out period where Iran is to behave. It is to fulfill its 
obligations and if they are not caught cheating during that 
time, then all the limitations come off and they are treated 
like any other country. Given Iran's track record, the clear 
evidence for decades, the current government has shown a 
concerted effort to--has pursued a concerted effort to develop 
a nuclear weapon. If they behave for 5 or 10 or 15 years, are 
we prepared at that point to say, okay, we will let bygones be 
bygones and going forward you will be treated like any other 
country? That is the promise.
    Now what I suggest in my testimony is logically for the 
Iranians an incredibly good deal. This is a get out of jail 
free card. All they have to do is behave and then--so if what 
they want is a nuclear weapon, they have been struggling. They 
have been under international sanctions. They have been under 
restrictions on their ability to import components. It has been 
a slog for them to get to where they are and they have been 
very persistent and they have stood up this program really only 
with help from the A.Q. Khan Network, otherwise, they procure 
things, but it has been covert.
    If they behave for the period of the Comprehensive 
Solution, they will be able to move forward with a civilian 
nuclear program with international cooperation. I mean that is 
promised to them in the JPA. And the logical thing for them 
would be to take that deal, behave, then once the Comprehensive 
Solution expires, then very aggressively stand up a far more 
robust civilian infrastructure than they have been able to 
stand up now. Go to tens of thousands of centrifuges, much 
larger quantities of enriched material. And then if they choose 
to break out, do so with a much larger infrastructure in place 
with a much larger stockpile of 3.5 percent enriched material 
or even 20 percent enriched material because once the 
Comprehensive Solution ends, they can go back to producing as 
much 20 percent material as they want.
    Chairman Royce. One of the arguments made to me by one of 
the ambassadors of one of the Arab states was if this comes to 
pass and Iran, of course, is continuing its effort to 
destabilize other countries in the region and he listed country 
by country where they were--from Yemen, where they are trying 
to topple a government and are very close to doing so, to their 
efforts throughout the region. When he exhausted all of the 
examples, he said a regime with that intent and also having the 
intent to obtain nuclear programs capability, you are in danger 
of leaving them with a hegemon in the region. And with their 
ambitions intact, both in terms of their capability of this 
weapon and knowing right now that they can destabilize other 
regimes and knowing that when you lift sanctions on them, that 
is going to be more hard currency that they will use to 
destabilize their neighbors. The argument he was making I think 
was the veiled threat that other states would then do the same 
thing, attempt to rush to a nuclear weapon in order to try to 
offset the aggressive nature of this regime.
    What do you think this portends for proliferation concerns?
    Mr. Rademaker. Are you directing that question to me, Mr. 
Chairman?
    Chairman Royce. Yes, Mr. Rademaker.
    Mr. Rademaker. I think we already have some history here 
that is instructive. In 1995, Iran announced that they wanted 
to build a civilian nuclear power reactor at Bushehr and Russia 
signed a contract with them to help. And for about 10 years it 
was the policy of the United States under both the Clinton 
administration and probably the first half of the Bush 
administration to oppose that and say Iran, this oil-rich 
country, ample energy resources, what do they need 
a<greek-l>n deg. nuclear power reactor for? We need to stop 
this. And it was a high priority for the U.S. diplomatically to 
turn off the Bushehr reactor.
    One of the reasons we wanted to turn it off was because we 
were afraid it would provide a justification for setting up an 
enrichment capability to fuel the reactor and in fact, that is 
exactly what the Iranians did covertly initially and then when 
they were caught, then the Natanz facility was revealed. And 
they justified it because they said they needed the fuel for 
their reactor.
    And so then the focus of our diplomatic activity shifted to 
their enrichment program and by about 2005, the Bush 
administration decided to give up in the losing effort to 
prevent completion of the Bushehr civil power reactor. And I 
was in the Bush administration at the time. Our talking points 
changed. We stopped talking about how they shouldn't have a 
nuclear power plant. We started focusing on just the enrichment 
facility. The moment we did that, what happened? Suddenly, it 
turned out a lot of Middle Eastern countries were interested in 
having civil nuclear plants, too.
    Chairman Royce. Yes.
    Mr. Rademaker. And the 123 agreement was negotiated with 
UAE and Saudi Arabia, Jordan, other countries started talking 
about how they wanted civil nuclear power. Now I think the 
Obama administration is proceeding on the assumption that we 
can change policy again and we can sign off on enrichment in 
Iran. And so okay, we are prepared to accept an enrichment 
capability in Iran.
    Chairman Royce. We should learn from past mistakes.
    Mr. Rademaker. And that the other countries in the region 
aren't going to immediately, when that happens, say well, guess 
what, we need enrichment too.
    Chairman Royce. Right.
    Mr. Rademaker. And then how do we say, how does the United 
States say to Saudi Arabia well, you know, actually, we only 
trust Iran to have enrichment. We don't trust you, Saudi 
Arabia, our ally. We only trust Iran.
    Chairman Royce. My time has expired.
    Mr. Rademaker. I think it becomes untenable.
    Chairman Royce. I am going to go to Mr. Engel. Thank you.
    Mr. Engel. Thank you, Mr. Chairman. Let us continue that. I 
am troubled, I said in my opening statement, that while we are 
talking with Iran, they continue to enrich. I still don't 
understand how that happened. I just don't understand it.
    And you mentioned, Mr. Rademaker, the 123 Agreement with 
the UAE. I had the UAE Ambassador in my office and he mentioned 
that agreement, which does not allow the UAE to enrich for 
peaceful purposes on their soil. Canada has nuclear weapons for 
peaceful purposes. They are not allowed to enrich on their 
soil.
    If we sign an agreement with Iran that ostensibly says 
well, they can enrich on their soil, but only for peaceful 
purposes, how do we ever get any of the other countries to not 
enrich on their soil? Aren't we then opening the door to you 
name it, Saudi Arabia, Turkey, Egypt. Why should any of those 
countries negotiate a deal where they will not be allowed to 
enrich on their soil for peaceful purposes when clearly we are 
giving it away to Iran?
    Mr. Rademaker. I agree entirely with your question. In 
fact, it was the point I was just making. I think once the 
United States says we are prepared to accept enrichment in 
Iran, this whole effort over the past decade to stem the spread 
of that technology to other countries it becomes untenable 
because how do we explain to any country that, especially 
allies, friends of the United States? You are our friend, so we 
are not going to let you have this technology.
    Now Iran, we are prepared to let them have it. I couldn't 
write the talking points for our diplomat to explain to our 
allies why we don't trust them to have something that we trust 
Iran to have.
    So I think what happens when we permanently accept 
enrichment in Iran is by default, we have to accept it anywhere 
else that wants it. I don't know how--you can try and make it 
financially attractive for them to not go in that direction, 
but for a country that is determined to have it, to tell them 
as a matter of policy it is the policy of the United States 
that only Iran gets to have it and not you, I think it is not a 
case that you can persuasively make.
    Mr. Engel. Rouhani has said to CNN that Iran won't 
dismantle a single centrifuge. The Joint Plan of Action calls 
for a Comprehensive Solution that says that ``would ensure 
Iran's nuclear program would be exclusively peaceful.''
    Is there a way to ensure that Iran's nuclear program would 
be exclusively peaceful without dismantling some centrifuges? 
Anybody care?
    Ambassador DeTrani. There is no question the number of 
centrifuges is extremely important, certainly for the monitors. 
When you have a number, and especially if they are even more 
sophisticated and they are spinning and they are putting out 
that much more capability, absolutely, there is no question 
about the numbers are important.
    Mr. Engel. Let me talk about an editorial that was in the 
Washington Post a few weeks ago, 3 weeks ago, perhaps. The 
editorial argued, and I said this in my opening statement, that 
we can afford to wait, that perhaps time is on our side if the 
date comes up in July and we don't have a comprehensive 
agreement, that it might be in the best interest of the United 
States to put it back another month or 2 or 3 or 4, that Iran 
is still undergoing a lot of economic difficulty as a result of 
the sanctions and that we might have more leverage if we let 
the date lapse beyond the July 20th date. That was essentially 
a Washington Post editorial. Anybody have any thoughts on that?
    Mr. Heinonen?
    Mr. Heinonen. First of all, we should not forget that this 
whole Plan of Action is very limited. Today, we don't know how 
many centrifuges Iran has. IAEA has got some declaration about 
the manufacturing of the replacements of the centrifuges, but 
it has not got the total number of centrifuges produced. So 
what is happening now in the next few months Iran is still 
likely building additional centrifuges. It is manufacturing 
components for the Arak reactor and it maintains the skills of 
the labor, in addition producing additional enriched uranium. 
So in my view, one should put a cap to this and not to wait. 
The problem doesn't become easier by waiting.
    Mr. Engel. So you disagree essentially with what the 
Washington Post editorial was saying about the fact that Iran 
is still being hurt with sanctions and they will continue to be 
hurt and time will not be on their side. You essentially 
disagree with that?
    Mr. Heinonen. I think it is a little bit wishful thinking.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Mr. Engel, we will now go to Ileana Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I have 
been on the record disapproving the Interim Agreement and any 
subsequent agreement that does not require Iran to cease all 
enrichment activities and dismantle its nuclear infrastructure. 
We know that Iran can't be trusted. We have decades of covert 
activities related to its nuclear program to back that up. Yet, 
we are now relying on two things, number one, that Iran is 
honest with us on disclosing all of its nuclear activities; and 
two, that the verification, monitoring, and transparency 
programs that we have in place are strong enough to detect when 
Iran is cheating. But all of the verification and monitoring 
system operate under the framework that is presented to us by 
Iran, only what Iran has declared as part of the program.
    In last month's IAEA Board of Directors report on Iran's 
nuclear program, the Director General stated that the IAEA 
cannot provide credible assurances about the absence of 
undeclared nuclear material and activities in Iran unless and 
until Iran provides the necessary cooperation with the agency. 
And we are all familiar with the Pentagon report that stated 
that the United States does not have the capability to locate 
undeclared or covert nuclear facilities or programs. So it is 
still very possible that Iran could be continuing its covert 
activity and neither the IAEA nor the U.S. would have any idea. 
And this Joint Plan of Action did nothing to strengthen 
verification and monitoring programs or force Iran to abide the 
additional protocols.
    Mr. Heinonen, thank you. You testified to our Middle East 
and North Africa Subcommittee in January and you stated that 
the JPOA provide IAEA inspectors access only to surveillance 
records, not anywhere else at the facilities, that the 
surveillance measures are designed to cover only certain 
activities. How comprehensive are these surveillance records? 
Is it possible that we are only getting access to what Iran 
wants us to see, not getting the full picture that the cameras 
perhaps only focus on the door and not what is going on in the 
room? And also, bad state actors that seek to acquire nuclear 
weapons--and I am thinking of North Korea, Iran, obviously, 
Libya, Syria--do so surreptitiously. So what we now have is the 
administration and the P5+1 negotiating on a basis of only what 
has been declared.
    Doesn't the success of any IAEA verification and monitoring 
program depend on access to all sites, all programs, all of the 
information, and people and equipment in order to get the full 
picture?
    One other major area of concern that we should all have and 
which goes largely unaddressed many times is the possible 
military dimensions of Iran's nuclear program. The 2010 U.N. 
Security Council resolutions on Iran ordered the regime to 
fully cooperate with the IAEA on all outstanding issues, 
particularly regarding the possible military dimensions of the 
program. That is not happening and the latest Board of 
Governors report states that not only is Iran not complying, 
but there have been extensive activities that may have taken 
place at Parchin, especially seriously undermine the IAEA's 
ability to conduct effective verification.
    So my last question is, we are nearing the end of the 6-
month time frame. There has been no access to Parchin. Does 
this undermine the credibility of the deal and the so-called 
monitoring and verification measures that we have in place? So 
that question and Mr. Heinonen, are we only seeing what Iran 
wants us to see? How comprehensive are the surveillance 
records?
    Mr. Heinonen. IAEA has several measures in place and 
surveillance is only one. IAEA measures the nuclear material 
that flows in Natanz. IAEA has short notice inspections at 
intervals between 1 or 2 weeks. So there are additional 
measures which complement each other, so we are not relying 
entirely on the surveillance. But it is important that this 
surveillance is modified so that it actually covers all the 
centrifuges and not just exit and entrance routes. I think more 
important that it calls for remote monitoring more so that we 
don't use this valuable IAEA inspection resources sitting at 
the side and reviewing computer screens.
    Ms. Ros-Lehtinen. We should modify it to include all of 
those?
    Mr. Heinonen. Yes. All this and this is what I say in my 
written testimony. And then one small remark still, whenever we 
verify the correctness and completeness of declarations and 
look at items which may have been declared, we need to remember 
that this is a very consuming process. This doesn't come in 1 
month or even \1/2\ year. And I give an example of South 
Africa. So we started this verification in 1993 and task force, 
the only thing--because South Africa nuclear program ran many, 
many years without any IAEA surveillance. So it took until 2010 
when the IAEA was finally able to say that all nuclear material 
in South Africa is in peaceful use. So it took that long time 
to come to this conclusion, based on the practices and 
procedures of the Iran. So Iran will face something very 
similar.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Chairman Royce. Let us go Mr. Brad Sherman of California.
    Mr. Sherman. Thank you. Mr. Lauder, I am interested in your 
analysis that we have got to look at break out possibility and 
sneak out possibility. I am not sure I understand what you mean 
by culture of compliance. Let us face it, Nelson Mandela was 
not taking over in Tehran. I think the culture will always be 
to try to maximize their nuclear capacity.
    Mr. Rademaker, you brought to our attention what we knew 
and that is after some period of time, Iran will be, at least 
according to this agreement just like any other non-nuclear 
state, except they will have signed and presumably ratified the 
additional protocol. Let us say that is the situation. Let us 
say that everything they have now is frozen and de-thawed 10, 
15 years from now. And they are subject to the additional 
protocol and that is about it. And they want to sneak, not 
break out. How long before they have a bomb? How long before 
they have a dozen?
    Mr. Rademaker. I think my personal concern is that will be 
up to them because----
    Mr. Sherman. Assume that they make an all-out sneak out 
effort, subject only to the additional protocol, how difficult 
is it to sneak out if you are subject to the additional 
protocol?
    Mr. Rademaker. I think there are two dimensions to break 
out and usually we talk about how quickly can they do it and 
that is an important thing to----
    Mr. Sherman. I am talking about how quickly they can do it 
without being detected.
    Mr. Rademaker. Right, but let me say I think for a country 
like Iran, the notion that they are going to race, they are 
going to violate an international law, they are going to race 
to produce one nuclear weapon----
    Mr. Sherman. Mr. Rademaker, you don't seem to be 
understanding my question. I am not talking about break out. I 
am talking about sneak out. That is to say undetected efforts 
to develop a nuclear weapon, assuming they don't want to be 
detected, but they are diligent, hard working, and well 
financed. What can they put together in a few years of being 
subject only to the additional protocol?
    Mr. Rademaker. Basically, they will be able to put together 
everything they want. They will be able to stand up a vastly 
more robust infrastructure with tens of thousands, hundreds of 
thousands of centrifuges, tons of----
    Mr. Sherman. And under the additional protocol, can they 
then divert the low-enriched uranium to a secret facility and 
put it up to weapons grade? Again, assuming they don't want to 
be caught.
    Mr. Rademaker. The more robust their infrastructure, the 
more quantity of nuclear material they have, the easier it will 
be.
    Mr. Sherman. Why don't I shift to one of the other 
witnesses?
    Mr. Lauder, can you answer the same question? If they are 
subject only to the additional protocol and they don't want to 
get caught, what can they do?
    Mr. Lauder. One of the reasons that I use the phrase sneak 
out in my oral remarks is the international community has 
focused a lot about the rapid break out from known facilities. 
One of our concerns has to be just as you indicated in your 
question, Mr. Sherman, that if Iran moves at a slower pace, but 
behind the scenes at facilities that we don't know about, it 
can continue down that path to nuclear weapons in ways that 
normal IAEA procedures would not necessarily be able to detect. 
That is one of the reasons----
    Mr. Sherman. Would they be able to put together without 
being detected, subject only to the additional protocol five 
bombs in the 5 years after this agreement is eclipsed?
    Mr. Lauder. I go back to testimony that the Director of 
National Intelligence Clapper gave before the Hill where he 
said that the fundamental constraining element or the 
fundamental point is what decision that Iran will make. If 
Iran----
    Mr. Sherman. They already told you the decision. The 
decision would be develop a nuclear capacity and don't get 
caught. Work hard. Assuming that is the decision, does anybody 
have an answer to the question?
    Mr. Lauder. In terms of time frame?
    Mr. Sherman. Yes. I said could they do five bombs in 5 
years subject only to the additional protocol?
    Mr. Lauder. Yes.
    Mr. Sherman. I just picked that number out. Does anyone on 
the panel have a better estimate of what they can do subject 
only to the additional protocol assuming they don't want to get 
caught?
    Mr. Heinonen?
    Mr. Heinonen. Certainly that is important for the IAEA in 
terms of verification, but we should not forget here that 
actually Iran can do a plan how to do it. They see which are 
the strengths of the IAEA, which are the weaknesses, and they 
actually can do high product routes, do something at particular 
facilities, do something in undeclared and in a combination you 
have this what you are afraid of. So I think this needs quite 
a--a kind of analysis, a rethinking of how the verification 
system is set up, and its capabilities.
    And I also want to bring to your attention that actually 
this whole thing will be a step-wise process. Once the----
    Mr. Sherman. I want an answer to this question. Does 
anybody disagree five bombs in the 5 years after they are 
subject only to the additional protocol?
    Ambassador DeTrani. I don't disagree. And that is why we 
need more than the additional protocol.
    Mr. Sherman. You say you don't agree or you disagree with 
five bombs in 5 years?
    Ambassador DeTrani. With the additional protocol, that is a 
possibility, because it is still managed access. You need 
unfettered access to everything.
    Mr. Rademaker. I agree with that, but let me just say I 
have a slightly different concern and that is not how quickly 
could they break out or how effectively could they sneak out. 
But if they choose at some point in the future to become a 
nuclear weapons state, not sneaking, but they just say okay, 
circumstances have changed, we need to have nuclear weapons, if 
they do that today, they can make a mad dash and in some period 
of months they will have maybe two or three nuclear weapons. If 
they have a vastly more robust civil nuclear infrastructure 
after the expiration of the Comprehensive Solution and at that 
point decide okay, now we're abandoning the NPT in a nuclear 
weapons state, what will they have? It won't be two or three 
nuclear weapons. It will be dozens. So what they will have upon 
breaking out with the much larger infrastructure that they will 
be admitting to have----
    Mr. Sherman. Knowing my time has expired, I think they will 
sneak out and then break out because if they have five nuclear 
weapons, our response to their announcement of break out and 
our response to their test will be considerably more similar to 
how we treated North Korea than how we treated Gaddafi or 
Saddam Hussein. I yield back.
    Chairman Royce. We go now to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman, especially 
thank you for calling this extraordinarily timely hearing and 
for the insights provided by our distinguished witnesses.
    As you know, Mr. Chairman, last week on June 4th we 
recognized the 25th anniversary of the Tiananmen Square 
massacre and I raise this because Bill Clinton, on May 26, 
1994, delinked human rights with trade. Beijing knew that human 
rights were a superfluous, an adjunct, a talking point. It was 
not nuclear. They had no real consequence if they violated them 
with impunity and I am very concerned fast forward to the Joint 
Plan of Action that when Iran looked us in the eyes, they knew 
that they could get major concessions and they already have 
achieved that with the sanctions regime. How are we ever going 
to put that back together? And this could be analogous to 
``Peace in our time,'' the infamous Neville Chamberlain quote 
he said after meeting with the Germans.
    These are game-changing days. And I am very concerned--
Secretary Rademaker, your testimony and your service has been 
extraordinary over the decades--you have reminded us that Iran 
has a deplorable history of deception, covert procurement, and 
construction of clandestine facilities which are acknowledged 
only when revealed or exposed, a catch me if you can mentality. 
It reminds me of Hans Blix traveling around Iraq looking for 
weapons of mass destruction. Iran, as we know, defied six 
binding resolutions, demanding that they suspend uranium 
enrichment. That now has changed. That is no longer what we 
have demanded through the JPA. And as you pointed out, in the 
signing of the JPA, Iran persuaded the United States and others 
to set aside its policy of no right to enrichment.
    You also called the biggest concession the idea of the ill-
defined time period, wait out a certain period of time, it is 
not defined, and at that point you elaborated that a few times 
in your statement just a moment ago.
    My questions would be one, human rights are very often the 
canary in the coal mine. In meetings and in conversations with 
the Foreign Minister of Iran have said you can do a grand 
stroke, release the political prisoners, release Saeed Abedini 
and then we will say hey, they may be meaning business here. 
There may be a sense of sincerity. I find it almost laughable 
in the preamble when it says on November 24th Joint Plan of 
Action, ``Iran reaffirms that under no circumstances will Iran 
ever seek or develop any nuclear weapons.'' If you believe 
that, I will sell you the Brooklyn Bridge.
    So of course, trust and verify, on-site verification are 
all absolutely required, but I think we are setting up 
ourselves to fail. And now with Russia--what kind of friend or 
colleague or partner are they going to be, given everything 
that has happened in Kiev and certainly in the Ukraine?
    So a couple of questions. The whole idea of the duration, 
Mr. Secretary. If you could really elaborate that even further. 
Twenty years, 25 years, it ought to be forever and as you said, 
to think that Iran might be construed to be Japan, and I think 
in your testimony you made some very, very good points about 
the whole idea that Argentina and they matriculated from a 
dictatorship to democracy, South Africa. So the examples were 
very well taken and you also said something if you can 
elaborate quickly on your need to anticipate that the executive 
branch officials are going to become deeply invested in the 
success of the JPA. Almost like a mission accomplished 
mentality when the threats to the region and the world are so 
high that that kind of political chicanery should be nowhere on 
the map. So if you could respond?
    Mr. Rademaker. Yes, sir, Mr. Chairman, I am happy to 
respond. It is certainly a conceptual thing. The concept of the 
JPA is we are not going to insist on a change in government. We 
are not going to insist on a change in your guiding philosophy. 
We are just going to look at your behavior for a set period of 
time. And if you behave as you promised, then it is your get 
out of jail free card. You will be able to go forward as a 
fully accepted, legitimate member of the nuclear club.
    And that is being promised to them up front with no--all 
they have to do is comply with whatever is in that agreement 
and nothing more.
    To me, the Congress, the American people are being asked to 
buy a pig in a poke because we don't know who is going to be 
the leader of Iran in 5 or 10 or 15 years when this thing 
expires. We don't know what they are going to be doing with 
respect to promoting terrorism around the world. We don't know 
how much they are going to be meddling in Syria or Iraq. We 
just don't know. And yet we are making this commitment up front 
that you behave and here are all the benefits you get. And I 
guess I would suggest that the judgment whether they are to be 
considered rehabilitated and treated like a normal nation is 
one that is really premature to make today. The judgment may be 
to be made much closer to the event and I don't see that in 
this framework. I mean we are making the judgment today that if 
they behave for 10 years or whatever the agreed period is, they 
will be deemed rehabilitated.
    And Congress will have an important role here, because I 
believe the administration is going to need you to enact 
legislation permitting them to waive some of the sanctions that 
are currently in place and so legislatively you will address 
this and I think in that context you ought to be thinking about 
to what extent are we prepared to accept this concept that all 
verification, all extraordinary verification ends and they 
become treated like--they become subject only to the 
verification that other countries are subject to.
    The trust, but verify, that is the wrong concept for a 
country with a track record like Iran. For Iran, it can't be 
trust. It has to be verify, but verify. You know, I don't know 
how trust can be part of the equation given their track record.
    Chairman Royce. We go now to Mr. Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman, and thank you for this 
important hearing. I for a long time have been worried about 
Iran getting a nuclear weapon. I think that one thing that 
everybody on this committee says and I heard the President say 
it also that it is unacceptable, that that is a no starter for 
Iran to have a nuclear weapon.
    And I was just thinking, listening to you, Mr. Rademaker, 
at the beginning of your statement, which really concerned me, 
was that on your return here, we are still talking 20 years 
later or 25 years later, we said that the threat was in 1992 
about Iran getting a nuclear weapon. And unfortunately, here we 
are today in 2014 with the same concerns which I would believe 
that various administrations, Democratic and Republican, have 
had different strategies in trying to make sure that we can 
assure ourselves of Iran not having a nuclear weapon.
    And here we are still at this juncture and this President 
has proposed trying to see what we can do talking with Iran, 
not only by ourselves, but an unprecedented level with some of 
our allies and some folks who may not because I think you have 
to have everybody there with the P5+1.
    And as I hear the dialogue going back and forth, the 
question that I ask myself sometimes, and I guess the first 
question that I would ask you because it just seems as though 
when we were successful with sanctions, it was when it became 
multilateral and not just unilateral. And if we want to make 
sure that we contain Iran and make sure they don't have a 
nuclear weapon and if they violate any of the--don't allow the 
IAEA to get in or anything of that nature, then I would think 
that if we have to ramp up sanctions, we would want to be able 
to do that with other nations because that seems as though when 
it has been successful.
    And so given Iran's history that--and what I have heard 
thus far which makes sense to me if they don't follow through 
and they are not going to follow through, then we are going to 
need to make sure that we still have unity among ourselves so 
that we can make sure that those sanctions that we have to put 
on or implement are not sanctions that is just done by the 
United States, but are sanctions that are also done by P5+1 
countries, so they become very important to us I think.
    I am going back and forth and I am thinking so the effort, 
at least the initial effort that is being made to have 
negotiations under the P5+1 and to make sure that the IAEA has 
access to whatever they are doing there, it seems to me 
tremendously important because we have not been there before. 
We want to verify what they are doing and what they are not 
doing extremely. I guess I am trying to get a sense from you, 
do you think that the effort that is at least being made thus 
far so in regards to the conversations that are taking place, 
we don't know what the end results are going to be because if 
they are a failure, then we have got to make sure that we ramp 
up these sanctions, etcetera. Do you think that we should make 
the effort that is made currently by the administration? To 
anyone.
    Ambassador DeTrani. I certainly believe we should make the 
effort, no question. And that is why the monitoring and 
verification protocol is so, so important. All the points you 
made, Congressman Meeks, exactly right. Unfettered access, we 
are concerned on the weaponization. We are concerned on the 
covert facilities there. They have not been forthcoming, 
absolutely.
    And the U.N. Security Council Resolution 1929 speaks to 
this issue. Iran should cooperate fully with the IAEA on all 
outstanding issues, particularly those which give rise to 
concerns about military dimensions of their nuclear program. So 
even if you have the U.N. Security Council coming forth with a 
resolution saying this, so we go forth. So the key would be a 
very robust, meaningful, monitoring and verification regime.
    Mr. Meeks. Anybody else?
    Mr. Rademaker. I guess I have said some critical things 
about the JPA, but you shouldn't infer from that I oppose the 
idea of trying to negotiate with Iran an end to their nuclear 
weapons program and an end to the risk of nuclear proliferation 
to Iran. I think a negotiated solution is by far the best 
outcome as opposed to continuing with sanctions. We continue 
with sanctions and they continue with their nuclear 
development. That is not a good solution. Military attack is a 
temporary solution, but not a permanent solution. So negotiated 
solution is ideal if you can get it, but it has always been 
possible to negotiate an agreement with Iran. All we have to do 
is agree to their demands and we have got a deal. That is 
obviously not acceptable. So you want to negotiate and you want 
to get a deal that actually addresses----
    Mr. Meeks. We know it is not easy. If it was easy, it would 
have been done. We know it is hard. This is hard stuff. And 
that is why this hearing is good. That is why listening to you 
and having this dialogue is good and hearing sides and hearing 
from folks and hearing from other countries is good because 
this is not easy. If it was easy, we would be done. This is 
hard stuff. And thank you for your testimony. I am out of time.
    Chairman Royce. We go now to Mr. Rohrabacher from 
California.
    Mr. Rohrabacher. Yes, thank you, Mr. Chairman, and thank 
you, Chairman Royce for calling today's hearing. And all of us 
should agree that one of the great foreign policy challenges we 
face and challenges we face are preventing a nuclear armed 
mullah dictatorship in Iran. I think that one of the things 
that has been lacking in this discussion so far today is the 
fact that we wouldn't care--there is a fundamental difference 
here is that we wouldn't care if this was Brazil. We wouldn't 
care if this was Ireland wanting to have this nuclear facility 
that could result in a nuclear bomb. What we have is one of the 
world's worst human rights abusers, China being the worst and 
this mullah dictator has jails filled with people that want to 
get along with the rest of the world.
    So perhaps the only way that we are going to succeed in not 
permitting the mullah dictatorship from having a nuclear weapon 
from what I am gleaning from what you are saying, frankly, the 
only way we are going to succeed is we get rid of the new 
mullah dictatorship in Iran. The bottom line is if we can't 
convince them and I am taking it from what I heard today that 
we are not going to be able to--not to take their word for it 
that they are not going to utilize this new capability. I don't 
believe that we are going to convince them that through a 
culture of compliance that they are going to change their ways 
because they want to fit into the culture. We either have to 
get rid of them or they are going to have the bomb. And when 
they have the bomb they may well, as we know they are fanatics.
    So the question is, shouldn't we be supporting--instead of 
relying on negotiations with the mullahs, shouldn't we be 
supporting those elements in Iran that would like to overthrow 
the mullahs and establish a real democracy? Does anyone want to 
go on record as saying that? I guess not.
    Mr. Lauder. If I could, I used that phrase culture of 
compliance as an aspirational goal in the sense that what we 
are ultimately trying to do through negotiated measures, 
through sanctions, through all the steps that the international 
community has taken is to bring about a more open and moderate 
Iran and this is one set of tools. There is obviously a variety 
of tools. And the inspection process itself, as we found in the 
Soviet Union----
    Mr. Rohrabacher. Let me just say, I don't believe that the 
mullahs want to be cool and go along with what the culture is 
all about, when we establish this new culture. I want to--I 
have got 2 minutes left or 1\1/2\ minutes. Are the Russians 
still engaged in the engineering and the development of the 
technologies that are going on, the centrifuges that will make 
the weapons possible? Are the Russian engineers engaged in 
this?
    Mr. Heinonen. Sir, actually the IAEA knows very little 
about the involvement of other countries in Iran's nuclear 
power program because of the limitations of the inspections. 
Therefore, the IAEA has not been able to fully investigate, for 
example----
    Mr. Rohrabacher. I am asking--I have got 1 minute left. Are 
the Russian engineers still engaged in this project?
    Mr. Heinonen. I think that for the enrichment program, 
there has not been direct Russian engineers directly involved. 
There are some assumptions on the weaponization part of the 
individual, but it appears that no Russians were part of the 
enrichment program.
    Mr. Rohrabacher. So right now, in terms of the actual 
building of this facility was a Russian project, was it not?
    Mr. Heinonen. No.
    Mr. Rohrabacher. It wasn't?
    Mr. Heinonen. It was a Bushehr power plant which nuclear 
power plant----
    Mr. Rohrabacher. That is what I am talking about, the 
nuclear power plant. Was the nuclear power plant built by the 
Russians?
    Mr. Heinonen. Yes, that is true.
    Mr. Rohrabacher. And the centrifuges wouldn't make any 
difference if they didn't have the nuclear power plant, right?
    Mr. Heinonen. I don't think they need the centrifuges for 
their nuclear power plant.
    Mr. Rohrabacher. No, no. I understand that. The point is 
when the Russians came on board, I remember going to the 
Ambassador in 1999, our American Ambassador, suggesting we give 
the Russians an alternative place to build several nuclear 
power plants because this would lead to this moment. And 
nothing happened. I said the same thing to Condoleezza Rice 
about a year later and nothing happened.
    When the Russians first started building this nuclear power 
plant, we were leading up to this day and I would hope that--I 
am sorry that it looks like our cooperation level with the 
Russians has actually gone down since this moment and perhaps 
this is something that would show a sign of good faith on their 
part if they would start cooperating with us in dealing 
specifically with the Iranians.
    Will you indulge me for one more question? Was there an 
offer, do any of you know of an offer by the Russian Government 
to refrain and to withdraw from this project early on before 
the nuclear power plant was done, before that part of the 
project was done? Do you know of any offer made by the Russians 
to withdraw from this project any time which could have 
prevented us from coming to this point? I have been told there 
was an offer and that we didn't pay any attention to it and 
that was under George W. Bush's administration. Thank you very 
much.
    Chairman Royce. Thank you, Mr. Rohrabacher. We go now to 
Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you very much, Mr. Chairman. Mr. 
Rademaker, you said you referred back to two decades ago when 
we were concerned about Iran's nuclear program. And I am trying 
to get a sense from the panel going forward, we are talking 
about verifying a comprehensive agreement. And yet, for as long 
as we have worried about the nuclear program in Iran, how 
confident were we that there wasn't a facility--I don't recall 
when Natanz was discovered, you can speak to that. But 
certainly Fordow, how confident were we that there weren't 
other facilities, nuclear facilities beyond Natanz? Let us 
start with that, Mr. Rademaker.
    Mr. Rademaker. The answer to your question is, we were 
never confident that there is no secret facility. Natanz was a 
secret facility until it was revealed in 2002. And then for a 
long period of time that was the only enrichment facility that 
we knew of in Iran. And then the Fordow facility was revealed 
and it was again, an even more secretive, underground facility.
    So today, is there yet a third underground enrichment 
facility somewhere in Iran under construction, in operation? I 
don't think anybody, given that record, that history, I don't 
think anybody can come to you and say we are confident that 
there is not. That is why the question regarding our patience 
is critically important, both in the near term through the JPA 
and the Comprehensive Solution, but also as I suggested in my 
testimony, even afterwards, because afterwards, when the 
Comprehensive Solution expires, the level of verification is 
going to go way, way down.
    Mr. Deutch. Is there anyone else on the panel that is 
confident that these are the only enrichment facilities in 
Iran?
    Mr. Lauder. I think as Mr. Rademaker has said, one of the 
reasons why I think all of us have been strong proponents of 
additional monitoring measures that are comprehensive and go 
beyond just certain facilities is to try to reduce the 
uncertainty about what is going on elsewhere in Iran that maybe 
we don't fully understand. And that is also why it is very 
important to get that precise and detailed, comprehensive, and 
complete accounting from Iran about its past activities. That 
needs to be part of the agreement.
    Mr. Deutch. And that is what troubles me the most. We are 
now a little more than a month away from the expiration of the 
6-month period and we have been talking for how long have we 
been talking about the military, possible military dimensions, 
Mr. Heinonen? When was the first IAEA report that talked about 
the military dimensions program?
    Mr. Heinonen. Actually, the first time it was mentioned 
indirectly was in spring 2004, if I remember correctly.
    Mr. Deutch. So we are negotiating during this interim 
period to get to a comprehensive agreement for a decade, for a 
decade. We have worried about possible military dimensions of 
the program. That is what has been driving the congressional 
action. That is why we have been engaged in these deliberations 
for now some several decades. But for 10 years, we have worried 
about this. We have known about this. And yet, what access have 
we been given thus far during this initial period when the goal 
is to negotiate a comprehensive agreement, what access have we 
been given to the other areas that we might be interested in to 
ensure that Iran has come clean on the military dimensions of 
its program?
    Mr. Ambassador?
    Ambassador DeTrani. Sir, that is why we want a robust 
monitoring and verification regime as we go forward, knowing 
what you just said.
    Mr. Deutch. I appreciate that. The question is, it is a 
chicken and egg situation, right? I mean how do we agree to any 
sort of comprehensive agreement with an adequate level of 
verification if to date on the most concerning issue about 
Iran's nuclear program, the Iranians haven't been willing to 
provide any access at all.
    Ambassador DeTrani. That is a fair point, sir. That is why 
persistent and continuous access to all the facilities, the 
ability to take samples, the ability to question people, to see 
documents and everything is very basic to a robust monitoring 
and verification program.
    Mr. Deutch. And certainly before we would ever entertain 
the possibility of extending this interim agreement for another 
6-month period, certainly we should expect that the Iranians 
would at least be willing to grant us that access in the areas 
that for more than a decade we had these concerns.
    Mr. Rademaker?
    Mr. Rademaker. I just wanted to interject the point that 
regrettably, this is another area where the JPA is deficient. 
The JPA, I can read you the sentence. There is one sentence in 
the JPA that talks about the history. It doesn't use the word 
military dimension, but that is what they are talking about.
    Let me just read you the sentence. This is how this 
question, this critically important question is addressed in 
the JPA. It says they are to create a joint commission of the 
two sides, the P5+1 and the Iranians. There will be this joint 
commission. And ``it will work with the IAEA to facilitate 
resolution of past and present issues of concern.'' That is all 
it says. So there is a mechanism that is going to work with the 
IAEA to try and figure this out. Nothing in the JPA depends on 
it actually being worked out.
    In other words, if this mechanism utterly fails to achieve 
satisfaction for the IAEA, that is unfortunate, but it doesn't 
stand in the way of the rest of the JPA. So what is going on 
here? I have to say I think regrettably what happened was our 
negotiators found this to be a very hard issue because I think 
the Iranians have a lot to hide. There is a lot of history here 
they don't want to talk about. So this became a sticking point 
in the initial discussions and the answer, the negotiators, the 
P5+1 ultimately settled on was we are going to ship this issue 
to the IAEA. It is going to become the IAEA's problem to get to 
the bottom. We will have a joint commission that will try to 
work with them, but if we don't get to the bottom, well, that 
is just too bad.
    Mr. Deutch. I am out of time, but Mr. Chairman, I 
appreciate that and I just hope that given that it is now more 
than a decade that we have worried about military dimensions of 
the Iranian nuclear program per the IAEA, longer for a lot of 
the rest of us, that at a bare minimum Congress should be 
informed of the very detailed nature of whatever talks have 
taken place surrounding that issue before we should be asked to 
budge an inch on any sanctions and in fact, whether to respond 
beyond 6 months. I yield back.
    Chairman Royce. Mr. Deutch, I think you and I should talk 
after this hearing on that very subject.
    Let us go now to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. Last year, the Asia 
Subcommittee which I chair and the Middle East Subcommittee 
chaired by Ileana Ros-Lehtinen, held a joint hearing to discuss 
the linkages between covert and illicit activities in Iran, 
North Korea, and Syria. It has been reported for some time that 
North Korea has been assisting and supplying Iran's missile 
program.
    Given the history of North Korea and the failure of the 
U.S. and international community to stop Pyongyang from 
acquiring nuclear weapons, what lessons should be applied to 
the situation with Iran moving forward? And what provisions, if 
any, in the agreement prevent Iran from outsourcing their 
nuclear program to another country as was the case with North 
Korea.
    I see you nodding, Mr. Lauder, so I will go to you first, 
if you like.
    Mr. Lauder. Well, I will start, but I am sure Ambassador 
DeTrani will have something to add to this point as well.
    One of the reasons why I argued in my statement that it is 
very important to have an effective means of monitoring Iranian 
procurement particularly if they are going to be allowed to 
have a peaceful nuclear program as part of whatever agreement 
emerges is to make sure that in the noise of those procurement 
efforts that Iran is not able to outsource significant parts of 
its nuclear weapons development program to other states or to 
non-state actors, the A.Q. Khans in the world, to states like 
Korea. And also, to get a good handle on what procurement that 
they are obtaining, because there has been this long track 
record of Iran looking for various sources throughout the world 
that could aid in its nuclear developments.
    Mr. Chabot. Ambassador DeTrani?
    Ambassador DeTrani. Sir, let me just note for North Korea, 
we have a real example here of how important verification and 
monitoring is. In 2008, when we were proceeding with the 
dismantlement programs to dismantle Yongbyon, there was a 
verification and monitoring protocol that they agreed to 
orally. When we asked for them to put it in writing because 
that was a very robust monitoring and verification protocol, it 
required, if you will, unfettered access, anywhere, any time, 
samples taken out of the country, they refused to put it in 
writing and that was the end. And since then they have not come 
back to the table.
    So to show how important that verification piece of the 
equation is with North Korea, I would think the same with Iran, 
with a very robust meaningful monitoring and verification 
protocols that insist on the unfettered access and samples and 
so forth. I think that will be very, very critical as we move 
forward. And that is exactly what we offered North Korea.
    Mr. Chabot. Let me just shift gears for just a moment. 
Where does Israel fit in all of this and their views on Iran-
compliant issues and just what attention is being paid in that 
area? Mr. Rademaker?
    Mr. Rademaker. Israel is obviously very concerned about the 
Iranian nuclear program and with good reason. Iran--Iranian 
leaders have on multiple occasions made comments about how 
Israel should be wiped from the face of the earth and wiped off 
the map of the Earth. So for a country like Israel, that is 
obviously alarming that we have those kinds of statements of 
intention, coupled with technological activity that seems aimed 
at producing a nuclear weapon which would actually enable them 
to do precisely what they are saying they would like to see 
happen.
    So the United States has a lot to be worried about and I 
think Iran's other neighbors in the Persian Gulf region have a 
lot to be worried about. And Israel has a lot to be worried 
about. Israel is paying a lot of attention to this problem. My 
understanding is there is a great deal of apprehension in 
Israel about the current course of diplomacy.
    As I said earlier, it is always a possibility to negotiate 
a deal with Iran, just agree to what they are asking for, and 
you have a deal. And I think the Israelis are concerned that 
the deal that was struck last year leans too far in the 
direction of Iran's negotiating objectives, that they are 
allowed to continue enriching, that they get sanctions relief, 
the momentum in the direction of tightening sanctions has all 
been reversed.
    And then they are promised this get out of jail free card 
that they can continue to enrich at a level that is being 
negotiated right now and then when that period expires, they 
can do all the enrichment they want. They can do all the 
reprocessing they want. None of that will be limited. So the 
Israelis, I think, are deeply concerned about that and my sense 
is it has given rise to some tension in the bilateral 
relationship between the United States and Israel.
    Mr. Chabot. I think my time has expired, Mr. Chairman.
    Chairman Royce. We will go to Karen Bass of California.
    Ms. Bass. Thank you, Mr. Chair. The Obama administration 
has intimated that a final agreement that leaves Iran with a 
nuclear weapons break out time is 6 months to a year may be 
acceptable. I wanted to know from the panelists, whoever 
chooses to answer, what you think of the idea of if a 6-month 
break out window would be a sufficient period of time to detect 
and counteract an Iranian break out? Sure, go ahead.
    Mr. Heinonen. Well, certainly 6 months is a very short 
period of time in international diplomacy. And it depends how 
Iran will deviate from the agreement or how it may renegade. 
There are several options available there. And if it goes, for 
example, in such a way that the only evidence that the IAEA has 
are the environmental sample results which normally take about 
3 months to deliver, 6 months is much too short time because 
you need to take evidence, additional samples, you can perhaps 
analyze them first, but it has a lot of vulnerabilities and it 
is also difficult to estimate the unknowns, what kind of 
parameter you have there, how long will it take to find out. 
You need to prove it, etcetera, so 6 months for me is the very, 
very short end.
    Ms. Bass. Yes, Mr. Lauder.
    Mr. Lauder. If I could just add, I think some of us feel 
that there may be too much emphasis on a time line because it 
is very hard to say for sure well, Iran is 6 months away from a 
weapon or it is 5\1/2\ months away from a weapon or even react 
in that time. And I think that is why several of us have been 
advocating that the really important thing to get right in this 
agreement is to layer on sufficient monitoring measures so you 
really have a sense of what is that attack status of Iran's 
program to the extent that you can get it. Because everything 
else falls from that.
    Ms. Bass. Yes
    .
    Mr. Rademaker. Forgive me if I sound like a broken record, 
but the 6-month break out time, that is fine. But bear in mind 
that 6-month period will only apply during the period of the 
Comprehensive Solution. When the Comprehensive Solution ends 
and that is going to be 5 years, 10 years, 15 years.
    Ms. Bass. Right.
    Mr. Rademaker. Then all of the things that give us that 6-
month window go away. They will no longer be limited to the 
number of centrifuges, the amount of the enriched material and 
so at that moment that solution expires, it won't be 6 months 
anymore it will be 6 weeks or 6 days.
    Ms. Bass. Right. And I heard you say that earlier, so what 
do you think it should be? So it shouldn't be 5 years. It 
should be 10 years, 15 years, forever? What are your thoughts 
about that?
    Mr. Rademaker. On the Comprehensive Solution?
    Ms. Bass. Right.
    Mr. Rademaker. I think the enhanced verification 
requirements, the restrictions--well, I don't think given their 
history I don't think Iran should be ready to enrich at all. I 
think it should remain the U.S. policy that they are not ready 
to enrich, but the restrictions on what they can do and the 
enhancement verifications that applies to that, I believe, 
should extend indefinitely until the international community 
can reach a judgment that it is satisfied that Iran is now like 
South Africa. They turned the corner. They are no longer a 
nuclear proliferation threat. I think it is going to take more 
than just good behavior for a finite period of time. Then I 
will feel comfortable that there is been a genuine change of 
heart.
    Ms. Bass. You and several of the other panelists mentioned 
several countries, South Africa, I think was one. Are there any 
other examples internationally where it has been without a 
specific time line?
    Ambassador DeTrani. Libya also declared their program and 
gave that program up.
    Ms. Bass. I am sorry, sir.
    Ambassador DeTrani. Libya also gave up their program.
    Ms. Bass. Thank you. I yield back the balance of my time.
    Chairman Royce. Thank you, Karen Bass. Now we go to Adam 
Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman and thank you all 
for being here and helping educate us and talking about some of 
these important issues. I mean as I look around the world and I 
look around especially the Middle East, I guess I am excited 
that the administration is so giddy about the prospect of 
negotiations with Iran. I think a lot of the pending 
negotiations we heard yesterday from the administration about 
how they are hopeful that the situation going on with the 
release of five Taliban will help lead to a reinvigorated 
Taliban to come negotiate with the United States. I reminded 
some folks of the administration that, in fact, Pakistan is in 
negotiations with the Taliban right now and about a day or two 
ago, 18 people were killed in an airport in a fight with the 
Taliban.
    Look at the situation in Israel, the Israel-Palestine 
negotiations and all the effort that the administration is 
putting into that which while we would all love that to be 
solved, it is probably questionably a regional conflict, a 
smaller conflict on the basis of conflicts that surround and 
envelope the entire Middle East.
    Look at the negotiations with Russia, how well some of 
those have gone and Syria and the situation we find ourselves 
in there. So I don't have a lot of hope in the future of 
negotiations from this administration.
    And I would ask if anybody, and I am going to ask this 
rhetorically, and you can feel free to comment later, if you 
can think of any success we have actually had with negotiations 
with an enemy of the United States under this administration.
    We had our boot on the throat of the Iranians at a time 
when we really could have, I think, ended the question of 
nuclear arms in Iran, but we backed away. And it is always 
interesting to me how the Iranians feel like they can be in any 
position at all to have any bargaining power at the table and 
have any demands from the very beginning. We have determined 
that they should not have the right to a nuclear weapons 
program and I think that pretty much says it.
    But that said, I want to go on to an issue that hasn't been 
touched on yet very briefly. I can ask for your comment to the 
level of your expertise. Can you talk about the Iranian 
ballistic missile program? They are developing the ability to 
deliver nuclear weapons through a ballistic missile program, 
yet of course, they claim that they have no desire for the 
weaponization of their nuclear program. So I am curious, 
whoever wants to go first, if you can talk about the situation 
where Iran finds itself right now with ballistic missiles.
    Mr. Lauder?
    Mr. Lauder. The Iranian ballistic missile program is a 
capability that is of concern, ought to be a concern. And in 
fact, it would be difficult to negotiate at this stage given 
what has transpired already. But I would think that it would be 
very important to begin to find a way to add additional 
constrains on that program and to add additional monitoring 
against the program.
    You can recall in the heyday of arms control agreements 
between the United States and the Soviet Union, for example, we 
chose to focus on delivery vehicles because they were easier to 
monitor in some ways that the nuclear weapons themselves and 
the nuclear programs themselves.
    And I think constraints and monitoring on the Iranian 
ballistic missile program would be a very useful complement to 
the types of things that we have been talking about so far in 
this hearing.
    Mr. Kinzinger. But do we have the ability to do that in the 
law? I mean, look, when you are negotiating with the Russians 
and you have arms limitation agreements, you have two super 
powers, both with a vested interest in trying to calm a 
situation. This is an asymmetric situation. I mean Iran is no 
Soviet Union.
    Do we really believe that we can put in place a way just to 
monitor, and this is what I am going to ask, are there ways to 
put in place to monitor what they are doing and to do it with 
assurances that they are not hiding anything in the mountains 
or underground?
    Mr. Lauder. I think one of the challenges that we face, as 
you quite rightly point out, is this is very much an asymmetric 
relationship. This is not where the United States is concerning 
some of its capability compared to something that we are asking 
Iran to do. We are asking Iran to stop doing what it has been 
doing illicitly against the international norms and 
international agreement and we are trying to trade off 
sanctions relief against that. We know how to monitor missiles. 
We certainly have a track record of things that we could put in 
place if we could bring Iran to that position.
    Ambassador DeTrani. But your point is right on though that 
is so central. Because if we are talking about weaponization 
and miniaturization that is a delivery system. You have to look 
at the ballistic missile program. And that is one program that 
they have worked with North Korea on and so forth and they 
continue to develop. So it is a very central piece to any 
meaningful monitoring and verification protocol. The missiles 
have to be very, very much a part of that.
    Mr. Kinzinger. Mr. Chairman, I have a million other things, 
but I will yield back.
    Chairman Royce. We go now to Mr. William Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. I would like to thank 
the panel for their very important discussion this morning. I 
think it underscores to me and many of our members the need for 
Congress to be informed fully before the agreement is to go 
forward. And many of the issues you brought up are critical 
ones.
    My role at the committee also is the ranking member on 
Europe Eurasia emerging threats there. So I would like to shift 
more into European perspective of things.
    How do you assess the role of our European partners in the 
PF+1 negotiations, especially with Catherine Ashton, stepping 
down as <greek-l>a  deg.the EU High Representative. Is that 
going to have an effect at all and would you comment on that, 
our partners and how they are viewing the situation and give us 
your expertise in that area as well.
    Ambassador DeTrani. So my only comment on that would be the 
Europeans have to be extremely concerned. The last question 
about the ballistic missiles because if North Korea has the 
capability and they are working on it to touch Europe with 
their ballistic missile system, if there is a nuclear program 
and--they are needing it. So I think the European nations have 
to be extremely concerned about the nuclear program, no 
question.
    Mr. Keating. Could any of you comment on the effect of the 
U.S. dealing with our European partners as well, what things 
could raise as potential conflicts, what things could we do to 
ameliorate things going forward?
    Mr. Rademaker. Sir, on your question about Cathy Ashton, 
obviously she has been a central player. I think her departure 
will make a difference although we don't know exactly what 
difference it will be because we don't know who her replacement 
will be. And everything will depend on personality of her 
successor.
    More broadly speaking, the observation was made earlier 
that for our sanctions policy to work we need cooperation of 
our economic partners and there have been plenty of hiccups 
along the way but by and large in recent years the cooperation 
has been pretty good. I think Congress has provided incredible 
leadership in the sanctions area, the short hand that applies 
to this is the Menendez-Kirk amendments to the Defense 
Authorization Bill. There have been two of them. But the way, 
they impose financial sanctions in a creative way designed to 
discourage the importation of Iranian oil, but it was done very 
cleverly and in a calibrated way that has actually worked. And 
there is a lot of conversation about frozen Iranian assets in 
foreign banks. These are not funds that are actually frozen, 
but they are funds that are being held in those banks and they 
can't be repatriated in cash form to Iran because of the U.S. 
sanctions policy that Congress mandated and that other 
countries are cooperating on.
    So the partnership has worked pretty well. I think in terms 
of the actual diplomacy, it is interesting. I was involved to 
some extent when I served in the Bush administration and I mean 
there are times that some of our European partners take a 
harder line on Iran than the United States does. I think, for 
example, the current French Government has been pretty firm in 
its demands of the Iranians. So it is gratifying to see, 
sometimes sobering to see, some of our allies take a harder 
line on the Iranian nuclear program than the U.S. Government.
    Mr. Keating. If the PF+1 moves forward though and there is 
some kind of long-term agreement and some of the ambiguity or 
the lack of robust verification that you talked about this 
morning isn't in place, what are the concerns as a group? What, 
for instance, would happen if the EU would move more ahead or 
some of the countries and lifting those sanctions unilaterally 
or as a group? Do you see that as a real concern going forward, 
a kind of disengagement?
    Ambassador DeTrani. Sanctions is a key. Lifting sanctions 
like that would be, I think, a terrible move and it would move 
us in the wrong direction. I think we have to be united on 
something like this.
    Mr. Keating. And then lastly, I just want to touch base a 
little bit on Russia. The U.S. and the EU imposed on Russia's 
oil and gas sectors at any point, what implication if any will 
increase European demand for gas having our ability to sustain 
international consensus regarding sanctions on Iran?
    Mr. Rademaker. That is a pretty complex question having to 
do with the functioning of global energy markets. But Iran and 
Russia are major energy exporters and so I guess they both 
benefit from higher prices and they both benefit from the 
emergence of shortages. So it is one of the challenges that I 
believe the United States faces in dealing with Russia, the 
fact that I think something like 30 percent of European gas 
consumption is Russian gas.
    There is an effort now to build a pipeline across Turkey 
and into southern Europe, ideally to be filled with Azeri gas. 
The Iranians I think would be happy to put their gas in the 
pipeline if they were allowed to do that. I think it is sort of 
a central tenet of U.S. policy we don't want that to happen. 
But the energy equation is a complex one and Iran as a 
government is guilty of gross financial mismanagement and so 
their energy resources are relatively undeveloped compared to 
what they could be with better management.
    Chairman Royce. We go now to Mr. Randy Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman. Our colleague down on 
the left, Mr. Meeks, said that negotiating with Iran is not 
easy. And I think--is it Rademaker, is that how you say that?--
said that negotiating would be easy, my words, if we roll them 
and play dead. You said if we give them everything they want. 
Was it you that said that?
    You know, my opinion is if we are not careful in these 
negotiations, we are going to get what we got in the Guantanamo 
trade. We get to keep one conventional weapon. They get five 
nuclear weapons. So it turns out Adam Kinzinger was exactly 
correct, negotiations have not been kind to us during this 
administration if I can put it rather glibly. If we don't 
realize that there is a danger in negotiating with Iran, we are 
fooling ourselves. Anyone here on the panel remember when the 
first time that Iran referred to the United States as the Great 
Satan? Anybody?
    Ambassador DeTrani. Was it when Khomenei came in '79?
    Mr. Weber. November 5, 1979 when Ayatollah Ruholla Khomeini 
called us the Great Satan. So for 35 years they have been 
exporting terrorism, calling us the Great Satan. Soon after 
that, I don't know what time, it was Israel was the small 
Satan. So should we be saying, when we talk about negotiating 
with Iran, the terrorists, here we are negotiating with a group 
of people who will--radical, Islamic, fundamentalist, jihadist 
terrorist, Khomeini--who the jihadist believe in exporting 
terrorism to the extent that they will strap explosives on 
young boys and girls to kill other boys and girls and innocent 
men and women and we think we can negotiate with them?
    I believe it was you, Mr. Lauder, who said that we need a 
list of all of their scientists who are working on their 
program. And I don't know if you saw the Wall Street Journal 
article on May 27th where there is a group of opposition 
leaders who have identified Mohsen Fakhizadeh, I think is his 
name, as probably the father of their nuclear weapon. Would you 
agree with that?
    And Mr. Chairman, by the way, Mr. Chairman, if I may, I 
would like to get this letter into the record.
    Chairman Royce. Mr. Weber, without objection, we will 
include that.
    Mr. Weber. Okay. Would you agree with that?
    Mr. Lauder. I think it is very important that we have 
access as part of the monitoring machine the key personnel who 
are part of Iran's nuclear program.
    Mr. Weber. But do you agree that he is the father of their 
nuclear program?
    Mr. Lauder. I don't know. Most nuclear programs probably 
have multiple fathers.
    Mr. Weber. But do you know this gentleman?
    Mr. Lauder. I know the name and know the individual, yes, 
sir.
    Mr. Weber. Mr. Ambassador, you are shaking your head.
    Ambassador DeTrani. I have heard the name before, sir, yes, 
absolutely.
    Mr. Weber. Turn you mike on, please, sir.
    Ambassador DeTrani. Sorry?
    Mr. Weber. Turn your mike on?
    Ambassador DeTrani. Yes, I have heard the name before, sir.
    Mr. Weber. You have heard the name.
    Ambassador DeTrani. And affiliated with the nuclear 
program.
    Mr. Weber. Would you give this credence then or is it just 
something you heard in passing?
    Ambassador DeTrani. No, I think there is probably something 
to it.
    Mr. Weber. Okay. You mentioned also, Mr. Lauder, that the 
facility, first of all, that once we should get that list of 
those involved, those scientists, we should have any time, any 
place, access for 24/7. I think that was you that said that in 
today's hearing which I can't agree more of. And we keep in 
context that we have got terrorists who will kill innocent 
children, men and women, and who have been lying and doing such 
for over 35 years. How long do you think we ought to give them 
a chance to prove themselves? Trust, but verify, 24/7, any 
time, any place access, should it be 35 years? Should they stop 
their exporting of terrorism to Syria or I should say 
supporting in Syria and you can go right down the list, 
Afghanistan, Iraq, all the terrorism they are supporting. 
Should it be 35 years or is 35 months long enough or not long 
enough?
    We will start with you, Mr. Rademaker.
    Mr. Rademaker. The question is----
    Mr. Weber. How long should we expect them to be compliant 
before we can trust them?
    Mr. Rademaker. I have a hard time answering that. It is 
sort of the Supreme Court on what is obscenity. I will know it 
when I see it. I don't think you can measure this by a time 
line. I think the measure of whether you can trust Iran will be 
the totality----
    Mr. Weber. Okay, I got you. I got you.
    Mr. Rademaker. The atmosphere, who is in power there, what 
policies are they pursuing.
    Mr. Weber. I got you. What do we catch them with, if we are 
diligent? I am almost out of time. Let us go to Mr. Lauder real 
quick.
    Mr. Lauder. And I agree with some of the comments Mr. 
Rademaker made earlier that we have to be about this monitoring 
and verification regime for the long term. There may be aspects 
of it----
    Mr. Weber. But 6 months. Karen Bass asked the questions, 6 
months to break out. Six months is not long enough, agreed?
    Mr. Lauder. Oh, for monitoring, oh, it has to be longer, 
yes.
    Mr. Weber. Mr. Heinonen, what do you think the length of 
time ought to be?
    Mr. Heinonen. More than 6 months, but it depends on the 
compliance, how the compliance is dealt with, what kind of a 
process will we have in place when something comes up when we 
see that Iran has not complied. The track record is pretty poor 
there. We have had a number of red lines which have been----
    Mr. Weber. Forgive me.
    Ambassador DeTrani. Sir, I would say this is going to be 
indefinite. I am going to say the part of the NPT, the IAEA is 
there. You are going to have to have those monitors. The extra 
protocol and the unfettered access is going to have to be there 
indefinitely.
    Mr. Weber. Thank you, Mr. Chairman. I yield back.
    Chairman Royce. We will go to Mr. David Cicilline from 
Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you to 
the witnesses for this very useful testimony on a very serious 
issue. I think the hearing underscores the principal challenge 
we face as a country and that is how do we reach agreement with 
a party with very serious consequences that has been deeply 
untrustworthy and deceptive. And I think in part our success 
depends on our ability to monitor effectively and to respond 
effectively to any failings in the agreement.
    So I want to first ask the witnesses, the Joint Plan of 
Action calls for a Comprehensive Solution that, and I quote, 
``would ensure Iran's nuclear program would be exclusively 
peaceful.'' We have also heard President Rouhani say that Iran 
will not dismantle a single centrifuge.
    So my first question is, is there a way to ensure that 
Iran's nuclear program will be exclusively peaceful without 
dismantling some centrifuges?
    Ambassador DeTrani. Let me just start off by saying they 
are talking about building additional centrifuges, even more 
sophisticated centrifuges. That flies in the face of where we 
are going here. It should be going the other way around. They 
need fewer centrifuges. They should not be enhancing and that 
is where it should be going.
    Mr. Cicilline. Is it even possible to develop or sustain a 
program which is exclusively peaceful that does not require 
some diminution of the production of centrifuges?
    Ambassador DeTrani. Certainly with the number they have now 
and the figure is about 19,000 that people are putting out. We 
saw recently, just a year ago they had enough uranium at the 20 
percent purity level which would have given them maybe enough 
to get one nuclear weapon. So yes, what they have now is 
sufficient to get them in the nuclear business. No question 
about it.
    Mr. Cicilline. Mr. Rademaker, you were about to say 
something?
    Mr. Rademaker. Yes, Iran is, of course, telling you today 
their nuclear program is exclusively peaceful. And they will 
say actually we don't have to do anything because it is an 
exclusively peaceful program. We, of course, don't accept that. 
If your question is, how many centrifuges can they be operating 
and we can be confident that it is exclusively peaceful? My 
personal answer is that with the current government, with its 
history, with everything we know about where they have been, 
the answer is they should have for me to say I am confident 
that their program is exclusively peaceful, the answer is zero 
centrifuges.
    Unfortunately, we are in a situation where under the JPA, 
they are going to have some number of operating centrifuges and 
that troubles me because I don't understand why they need any. 
And I think it is something of a logical conundrum because 
their argument is this is, we are developing infrastructure to 
produce fuel for our civil nuclear program. Well, if you buy 
that, then they actually do need a lot more centrifuges than 
they have now.
    And so this idea that you are going to negotiate some 
number and it is going to be lower than what they have now and 
that is evidence of a peaceful program, well, some minimal 
number of centrifuges makes no economic sense in commercial 
terms. It makes a lot of sense in military terms, but that is 
sort of where we are. We are sort of negotiating them down to a 
centrifuge program that the size will only make sense in the 
context of a military program. I think it would have been more 
logical to go with the requirement that they have zero 
operating centrifuges.
    Mr. Cicilline. Which actually gets to my next question. I 
think many of us think if there were not sufficient constraints 
in the Joint Plan of Action with respect to research and 
development and sort of the view that the current state of 
technology, as if it is frozen in time. I am wondering what 
your thoughts are about what should be in the final agreement 
that would impose responsible constraints on research and 
development such as--I mean to ensure kind of the security of 
our country and the limitation of any final agreement.
    Ambassador DeTrani. Well, certainly access to facilities, 
access to the scientists, the technicians, access to the notes, 
the data, access to past records. I think it is important to 
really go way back with Iran on this to confirm where they are, 
to determine what is the state of capability. I think that is 
all necessary.
    Mr. Cicilline. But in addition to the knowledge of that are 
there any limitations that we should attempt to secure in a 
final agreement to actually limit research and development in 
their nuclear capability?
    Mr. Heinonen. First of all, we need keep in our mind that 
these are dual-use technologies. Once you have a centrifuge, 
you can produce uranium for peaceful purposes or nonpeaceful 
purposes. So this is actually the measurement of the 
intentions. And it is not a technical topic. It is the behavior 
of a state, also economic rationales, as Mr. Rademaker has 
said. I personally see it is very hard to argue that Iran needs 
enrichment for Bushehr power plant. And their concern is that 
nobody sells to them enriched uranium. But Iran doesn't have 
uranium in its soil. So if you are not able to buy uranium, you 
are well dressed, but nowhere to go with your enrichment plant. 
So you need to think about the rationale I suggest is the case, 
and then base your argument to that.
    Mr. Cicilline. Thank you. I yield back, Mr. Chairman.
    Chairman Royce. We are going to go to Mr. Ron DeSantis of 
Florida.
    Mr. DeSantis. Thank you, Mr. Chairman. I have been struck 
by watching the Ayatollah's reaction to how things have 
unfolded. And he spoke the other day in front of a banner that 
said, ``America cannot do a damn thing,'' I believe. And he 
basically said that they have renounced the idea of any 
military actions. And so I think I am trying to understand from 
their perspective how he sees sanctions being eased, force 
being ruled out. So what incentive does he have to want to 
change his course of conduct? To me, he is absolutely 
incentivized to want to continue to enrich and to have a 
nuclear capability. Does anybody want to quibble with me about 
from the Ayatollah's perspective, haven't we provided him, as 
he sees it, a roadmap to continue on?
    Mr. Rademaker. I think your points are well of concern. 
What brought Iran to the negotiating in the first place? It is 
pressure, economic pressure, political pressure. That pressure 
has been relieved to some extent and certainly on the military 
side I think they probably are a lot less concerned about the 
threat to a U.S. military strike today than they would have 
been a year or 2 ago.
    We have negotiators who are meeting with the Iranians right 
now. They are meeting today in Geneva. Maybe they are making 
progress. I don't know, but I guess I am certainly concerned 
that Iran right now, I think they know what they need to agree 
to get a deal. They are refusing to make that deal. They are 
holding out for better terms. Is that because they are under 
less pressure and did they calculate the pressure is going to 
diminish over time? In other words, with the current trajectory 
is in their favor? Yes, I worry a lot. Maybe that our diplomats 
are, too, because I think they are probably frustrated, they 
can't get the Iranians to say yes to whatever proposal they are 
making.
    Mr. DeSantis. We sometimes, I think, my frustration with 
seeing as how some of this unfolding particularly looking at 
people in the State Department as they will deal with Iran and 
treat them in a way that I think imputes too much of a Western 
sensibility into how Iran conducts themselves. I don't think 
they recognize enough the extent to which they are motivated by 
their virulent form of the Islamic jihad, the ability to 
continue to wage war against infidels, the United States being 
the Great Satan. And so I just look at it and I think from 
their perspective, I think they see them playing us like a 
fiddle.
    I understand we have negotiations. I am absolutely not 
optimistic that that is going to be done and that Iran is going 
to willingly disarm itself. I hope I am wrong, but I think that 
is just where we are and I will yield back the balance of my 
time.
    Chairman Royce. Mr. Brad Schneider of Illinois.
    Mr. Schneider. Thank you, Mr. Chairman. Again, echoing what 
has been said today. Thank you for calling this hearing and for 
allowing us to conduct it in a bipartisan way on an issue of 
grave importance.
    Mr. Rademaker, let me start with you. You touched on in 
your testimony and in subsequent conversations the fact that 
Iran, the concern that the deal being negotiated is a time 
based agreement, that Iran just sits tight for a period of time 
and then it is free to proceed however the country wants to 
under a term that we treat Iran like Japan. I think the sense 
that we all need to understand that Iran is not Japan. Iran is 
a revolutionary regime. It has got hegemonic ambitions and 
clearly demonstrated nefarious intent and deeds. And the idea 
that such a state can be treated like Japan, I would argue it 
would be the exact opposite. Such a state can never be treated 
like Japan, or treated in the same manner as the JPOA says, as 
that of any non-nuclear weapon state party to the NPT. Iran is 
different.
    And as we sit here, today is exactly 40 days away from July 
20th deadline set by the agreement. Again, as was previously 
mentioned, there was talk about moving Iran back on the pathway 
to a nuclear weapons capability. I think many of us have stated 
here before and again today that moving Iran backwards is not 
sufficient. The goal should be to move Iran off the path to a 
nuclear weapon.
    By that long way of an introduction, Mr. Rademaker, for the 
whole panel, is there any reason why we should be giving, as 
you stated, the goal of holding Iran to zero enrichment, 
holding Iran to not having an Arak plutonium reactor, holding 
Iran from fully disclosing their previous potential military 
dimensions of their nuclear program?
    Mr. Rademaker. First of all, congressman, I think you and I 
are in violent agreement about our perspectives on this. In 
answer to your question, the rationale for allowing them to 
enrich, I am really the wrong person to ask to provide such a 
rationale because where I come down is the correct answer is 
they should not be allowed to enrich given their history. So I 
think if you want someone to give you a reason to permit that--
--
    Mr. Schneider. Does anyone have any case that would justify 
allowing Iran to enrich? I think the sense is that we are all 
in agreement that that shouldn't be. I know before November 
24th last with the announcement of the agreement was made, the 
conversation was, my terms, permanently closing any and all 
pathways for Iran to acquire a nuclear weapon. It seems the 
concern is that this is not closing those pathways at all.
    Mr. Lauder, in your written testimony, you talked about the 
sense of--well, how to deal with noncompliance. How do we deal 
with noncompliance before we even have an agreement? What 
should we be doing now to make sure Iran has the incentive to 
go forward?
    Mr. Lauder. Well, I think it is an excellent question and I 
think it comes back again to this theme of to begin to have any 
confidence that this agreement will be complied with, we have 
to go back to Iran's past and have to press them to make a full 
disclosure of what they have done in the past on their nuclear 
program.
    We still have the leverage of sanctions. We still have the 
leverage of nothing is agreed to everything is agreed. But that 
understanding of what Iran has done in the past becomes the 
foundation, then, for the monitoring regime. And we do have to 
remember that.
    Mr. Schneider. Ambassador--I am sorry, Mr. Heinonen.
    Mr. Heinonen. In 2003 when EU reached an agreement with 
Iran, actually there was a paragraph there which required Iran 
to come with the complete past history of its nuclear program 
and it failed to do so. And I think that we need to look at 
what was the reason for the failure? Were there some other 
mechanisms which we should apply when faced with this? And I 
think it is the most important element of this new agreement to 
be concluded.
    Mr. Schneider. Ambassador DeTrani?
    Ambassador DeTrani. If I could just comment, sir. 
Sanctions, they are biting. We know why the Iranians are back 
at the table. They made it very clear. They need relief. 
Sanctions and sanctions, going after the financial system, the 
institutions and so forth, there are a list of activities. This 
is so key. And that is the pressure. That is the pressure to 
keep them on a path. And once we keep that pressure on, my 
personal views, my personal view, you keep that pressure on, if 
they want relief, they are going to have to perform and that is 
where the verification monitoring comes in and so forth. When 
they are not performing, that pressure continues.
    Mr. Schneider. Ambassador, I agree with you. Sanctions are 
what brought Iran brought to the table. My personal belief is 
that we need to make sure Iran understands that the no deal is 
better--no deal is better than a bad deal. No deal is not the 
sanctions we had in November 2013, but orders of magnitude 
greater bite in those sanctions if there is not a deal to our 
terms and thus close those gaps. With that, I yield back. Thank 
you very much.
    Chairman Royce. Thank you. We go now to Mr. Ted Yoho of 
Florida.
    Mr. Yoho. Thank you, Mr. Chairman, and gentlemen, I 
appreciate you being here. We have sat here several times over 
the past 1\1/2\ years and I think some of you have been here 
and I remember Ambassador Bolton was here and everybody was 
pretty much in agreement that Iran was going to have 
fissionable nuclear materials to construct a bomb, five to six 
bombs by January or February of this year. Has Iran 
accomplished that mission? Do they have enough material to do 
that?
    Ambassador DeTrani. I don't think we see that. Sir, the 
sense is no, they do not. The concern was when they had 20 
percent purity and enough kilograms to have maybe one.
    Mr. Yoho. Yet, we don't have all the information. So we 
can't say with certainty they don't have that, correct?
    Ambassador DeTrani. Because we are just looking at the 
declared facilities and there may be un-declared as the IAEA is 
indicating.
    Mr. Yoho. Mr. Lauder and Ambassador DeTrani, you were 
saying that it is very difficult to monitor and verify Iran's 
compliance to the Iranian-U.S. JPA agreement. Do you believe 
these details should have been worked out prior to any 
agreement starting and releasing sanctions? I mean if you are 
going into a negotiation, you should have everything on the 
table. I want to know everything you have before you move 
forward. Would you agree with that?
    Ambassador DeTrani. Sir, I don't have all the modalities of 
the negotiators and what they were using. I believe they gave 
them relief on a certain number of sanctions, so they could 
move forward.
    Mr. Yoho. If we can't verify now or monitor it, we should 
have had a way to monitor that stuff all those parameters 
before we move forward. I would hope so.
    How about you, Mr. Lauder?
    Mr. Lauder. I think it is very important before there is 
further loosening of the sanctions which have brought Iran to 
the table that we do get this complete and full accounting of 
Iranian activities and have the declarations that we need as 
the basis of our monitoring regime.
    Mr. Yoho. In your opinion, does the current situation in 
Iran's nuclear program or whatever they are doing in our 
agreement, does it allow Iran to get closer to having a bomb if 
we stay on the current track, Mr. Rademaker?
    Mr. Rademaker. I think the Obama administration would argue 
that the current arrangement diminishes the risk of nuclear 
break out, because it limits the number of new centrifuges that 
Iran can employ. Actually, it prevents them from continuing to 
enrich to 20 percent, at the 20 percent level which they were 
doing in the past. But on the other hand, there has been some 
recent analysis done by the Bipartisan Policy Center. It is on 
the Web site. They are not only producing 20 percent enriched 
material, but their production of lower enriched, 3.5 percent 
has gone up by about 25 percent.
    Mr. Yoho. And what I have heard on this panel----
    Mr. Rademaker. The advantages of progress is substantially 
less than the Obama administration advertised.
    Mr. Yoho. Right, but what I have heard on this panel today 
is they have got way more centrifuges than they need to have 
for nuclear power production. And so I think we are all in 
agreement that they are moving in that direction. They have 
been moving in that direction in the last 25 to 30 years, 
playing the cat and mouse game.
    Do you believe that the U.S.-Iranian Interim Agreement was 
detrimental to the U.S. security or Israel's security or the 
regional security the way it was negotiate and released the 
sanctions at the time they did? Do you think it was detrimental 
to do that, just kind of real quickly because I am running out 
of time.
    Mr. Rademaker. I think it was detrimental on the sanctions 
side. I also think it was highly detrimental by basically 
legitimizing centrifuge enrichment in Arak which, up until the 
time of the agreement, was something we said was not permitted.
    Mr. Yoho. Ambassador DeTrani, what do you think?
    Ambassador DeTrani. Sir, the reporting is that Iran has 
down blended and converted to uranium oxide their inventory. 
This is coming out of the IAEA. They are talking about 
framework for cooperation----
    Mr. Yoho. Your microphone, please.
    Ambassador DeTrani. I am sorry. The reporting from the IAEA 
indicates that Iran has down blended and converted to uranium 
oxide their inventory, all of their inventory of 20 percent 
purity enriched uranium. The IAEA report speaks about the 
framework for cooperation. So I think what we have just 
recently seen from the IAEA is that there has been some 
movement on the part of Iran in response to the relief on some 
of those sanctions. But that is just a very interim type of 
approach to it.
    Certainly, if you are sitting in Israel and you are looking 
at the existential threat, you are looking at something 
different, so that is----
    Mr. Yoho. That brings me up to my last question. Since 
Iran--do you feel like they have abided by the terms of the 
agreement?
    Ambassador DeTrani. Sir, I don't have any particulars on 
that, but according to the IAEA, the IAEA's most recent report 
is a much more positive report than I have seen in the past 
with the exception of the weaponization and the militarization.
    Mr. Yoho. And if they don't abide by that, what should we 
as a nation do? More sanctions, preemptive strike, prepare for 
the day that they do get a nuclear bomb?
    Ambassador DeTrani. Sanctions are biting. Sanctions are 
big. Sanctions have had impact.
    Mr. Yoho. I am out of time. I appreciate your time. Thank 
you.
    Chairman Royce. We go to Mr. Juan Vargas of California.
    Mr. Vargas. I, too, want to thank you, Mr. Chairman, for 
having this meeting and also to the ranking member. As many of 
you know, I have been very critical of the interim deal. I 
thought it was a mistake. I believe that we first should have 
gotten the final deal. Then we should have negotiated the 
interim deals. In other words, we first should have made sure 
that there was no path to getting a nuclear weapon. Then we 
could have negotiated these interim deals because I did think 
that the sanctions were working and I voted here to ratchet up 
the sanctions because I think you had to get that fundamental 
choice. Do you want your nuclear program and do you want to 
militarize it as you are tempted to do or do you want a 
functioning economy? We would continue to press the sanctions 
until you didn't have a functioning economy. I think that that 
would have been the right way to go.
    Now we are here. And we are here and I think it is a very 
dangerous situation that we are in because I do think that if 
we are going to get to July 20th and for sure they are going to 
have one more time. That is what we feared at the beginning. I 
think that that is going to be the case. Then what do we do? 
Then do we say well, we are not going to negotiate and make 
ourselves look like the bad guys? Then it is harder to put the 
sanctions back on again.
    So where do we go from here? And I do want to comment, Mr. 
Rademaker, I couldn't agree with you more wholeheartedly. If it 
is a 5-year deal, if it is 10-year deal, or it is even a 20-
year deal, it is not a deal. I mean that is a bad deal. This is 
a situation where you have to make sure you can force them to 
comply all the way out because otherwise they will simply play 
cat and mouse and outlast us 10 years and then they will get on 
with their nuclear program. So where do we go from here? I mean 
as we are approaching this point, I don't think we are going to 
be able to----
    Ambassador DeTrani. I agree on the monitoring and 
verification, congressman. There is no question about it and we 
have talked about unfettered access, any time, any place, 
access to all the facilities, concern about covert facilities, 
concern about weaponization. These are things that need to be 
drilled down and pursued with great vigor indefinitely.
    Mr. Vargas. Right. I believe we are going to get to the 6th 
month, assume for a second, we get to the 6th month and they 
want more time. What do we do? At that point, what do we do?
    Mr. Rademaker. I think it is pretty clear that if we reach 
the 6-month point without having reached agreement on the 
Comprehensive Solution, I think there will be a 6-month 
extension. In fact, the JPA at one point says it will take up 
to a year to negotiate this, so even a draft of the JPA, they 
were anticipating potentially a 6-month extension. I did want 
to pick up on one thing you said. You said you think the right 
thing to have done here would have been to negotiate the final 
agreement and then come back and fill in the details. It pains 
me to say this, but I think in fact that is what they did. I 
mean the JPA does specify the final agreement.
    The final agreement is that--I read it earlier. The final 
agreement is that upon the expiration of the Comprehensive 
Solution, the Iranian nuclear program will be treated in the 
same manner as that of any non-nuclear weapon state to the NPT.
    So the end state, the final state is no sanctions, no 
restrictions on their ability to do whatever they want in the 
nuclear area, subject to ordinary safeguards and----
    Mr. Vargas. If I could interrupt just for a second. I mean 
the issue of having any type of enrichment program, any type of 
way for them to be able to reach that ability to, in fact, 
create the nuclear weapon, having that facility----
    Mr. Rademaker. But that is----
    Mr. Vargas. I know what you are saying and I actually am 
not disagreeing with you, but I think that in the final 
agreement, what I would say is that if you are going to allow 
any kind of nuclear power program it had to be one so tight 
there was no way around it that you had to have the fuel coming 
from somewhere else, monitored closely, that you would have to 
have unfettered access to their country where they could 
potentially be hiding things, that is the deal I mean because I 
agree with you. That is why I think personally and again it is 
very critical, I think that the people who are associated with 
this deal were very good hearted and attempted to negotiate 
with a Western type of nation and found out that that is not 
who they are negotiating with. I think it was very naive.
    Mr. Lauder, could I have you comment on that?
    Mr. Lauder. I think to the extent to which the negotiations 
continue, the opportunity needs to be seized and I agree with 
Ambassador DeTrani in this respect, is to use that time to push 
even harder to expand the monitoring provisions that Iran will 
need to undertake. Iran is different. They have violating 
international norms over an extended period of time. They have 
not been compliant with the international agreement. It is 
reasonable then to expect that Iran should need to undertake 
additional monitoring provisions to build confidence in the 
international community that they are changing their path.
    Mr. Vargas. Thank you. My time has expired. I want to say 
though I think Iran is like North Korea. If they get a nuclear 
weapon, they will also threaten to bomb Los Angeles or else and 
I unfortunately think they might have the nerve to do it. Thank 
you.
    Chairman Royce. Thank you, Mr. Vargas. We go now to Mr. 
George Holding of North Carolina.
    Mr. Holding. Thank you, Mr. Chairman. I think we can all 
agree that if the Obama administration is to craft the final 
agreement with Iran that it would be a huge foreign policy win 
at least in the eyes of the administration, a foreign policy 
win, a political win, truly in an environment of an 
administration that is somewhat bereft of foreign policy wins 
or accolades. My concern is that if they achieve what they 
consider a win, that they will lack the political will to risk 
tarnishing that win by calling out a violation that we find 
substantively.
    So my question and I have got just to run down the line and 
have each of you all to respond to this is what internal 
controls are there, red teams so to speak, that would ensure 
that the politics of trying to salvage this foreign policy win 
don't trump good sense in the White House as far as calling out 
a violation.
    Mr. Rademaker? I have got 30 seconds, so let us go down and 
by the time everyone has done that, I will be out of time.
    Mr. Rademaker. I honestly don't know what sort of checks 
there might be within the administration. Every President can 
structure decision making on foreign policy in his 
administration in the way he sees fit. I would like to think 
that there are people at the Defense Department that are 
vigilant. That there are people in the intelligence community 
drawing attention to problems, but I don't know. I think the 
ultimate red team is the United States Congress and this 
committee.
    Mr. Holding. Perhaps that might have been helpful as the 
President was considering exchanging Bergdahl for five Taliban 
terrorists.
    Mr. Rademaker. Well, the good news here I think for the 
Congress is I think one of the things the Iranians are 
demanding is to end all U.S. sanctions. In fact, they are 
promised that in the JPA. I don't think the President has the 
authority unilaterally to get rid of all of the sanctions. He 
has waivers. He has the ability not to enforce certain laws, 
but I think at the end of the day there are certain things that 
only the Congress is going to be able to do and so for them to 
fulfill their commitments to the Iranians in this negotiation, 
they are going to need this committee and this Congress to pass 
legislation. And that will afford you an opportunity to pass 
judgment on the entire arrangement and for that reason I would 
think it would behoove the administration to consult closely 
with you now to make sure that you are prepared to accept----
    Mr. Holding. Indeed. Mr. Lauder.
    Mr. Rademaker. I don't know if that is happening, but 
ultimately they need to persuade you that they struck a good 
deal and if there are details that you are unhappy about, it is 
probably better to let them know that now rather than after 
they promised things to the Iranians that they are not going to 
be able to deliver.
    Mr. Holding. Mr. Lauder.
    Mr. Lauder. I agree that perhaps the most effective red 
team for this will be the U.S. Congress. You will have the 
opportunity and I am presuming to say this as an outsider, but 
this is not a treaty, but you will have the functional 
equivalent of a resolution to ratification when you deal with 
the sanctions question. And that is an opportunity to express 
the Congress' views about the types of capabilities that need 
to be--for monitoring that need to be nurtured in the U.S. 
Government, that need to be funded in the U.S. Government, and 
you can ask for a periodic compliance report to the extent to 
which Iran is compliant with the agreement, what types of 
anomalies are being detected, what has been done to resolve 
that, to ask for both a periodic unclassified and classified 
report. That certainly has been a feature of other agreements 
in the past.
    I think you used to like them when I was in the Executive 
Branch because they were a lot of work and it led to a lot of 
internal debate, but I think it is something to make sure that 
the Iranians understand that their compliance is going to be 
very important to the United States across all the branches.
    Mr. Holding. Thank you. Mr. Heinonen?
    Mr. Heinonen. Thank you. I agree with Mr. Lauder. And I 
think the red team is actually the public opinion that you make 
the deal open and open compliance reports. There is an 
automatic assessment. This is important. It is important not 
only to the security of the United States of America, but 
regional security and we set a benchmark of how we are going to 
deal, for example, in the future with North Korea. So this will 
have a lot of ramifications and they don't end up here.
    Mr. Holding. Mr. Ambassador?
    Ambassador DeTrani. I believe ground truth will be the 
monitors who are in the field, the IAEA and other countries 
when they deal with them. I believe it is those foreign 
governments that also have access and unique insights into what 
is going on there. I think a strong case can be made that they 
can speak to compliance issues and if Iran has gone on to their 
own way and if they are cheating and so forth I think that will 
come forth. I don't think anyone is going to be able to conceal 
that aspect to it.
    Mr. Holding. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Holding. We thank all of our 
witnesses for their testimony and I think you have given us a 
lot to consider as the administration continues to negotiate.
    I am particularly troubled that, as Mr. Rademaker put it, 
this agreement puts Iran on the path from nuclear pariah to 
nuclear partner and I don't think any member of the committee 
is comfortable with that given the Supreme Leader's comments in 
May in particular about expectations that we might try to limit 
their ballistic missile program. As I quoted earlier he said, 
``this is a stupid, idiotic expectation.'' But I didn't give 
you the rest of his quote which to me is very revealing. He 
said, ``The Revolutionary Guards should definitely carry out 
their program and not be satisfied with the present level. They 
should mass produce ballistic missile.'' He said, ``This is the 
main duty of all military officials.'' Now he is not referring 
to a space program here. And when you combine that with the 
call for the head of Iran's Atomic Energy Organization to add 
30,000 centrifuges last month to Iran's existing 19,000, 
ignoring what the Iranian officials and what their leader is 
saying on this subject as they move forward with their program 
is very concerning to me and I especially wanted to thank Mr. 
Engel and the other members of this committee and our witnesses 
for the chance today to take a good, hard look at the on-going 
negotiations. Thank you all very much and we stand adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]

</pre></body></html>
